Quarterly Progress and
Oversight Report on the Civilian
Assistance Program in Pakistan
As of June 30, 2012
Foreword
This is the tenth quarterly progress and oversight report on the U.S. Government’s civilian assistance
program in Pakistan. The U.S. Embassy in Pakistan requested quarterly reporting to inform stakeholders
about progress achieved to date, problems encountered during program implementation, and actions
taken to address them.

This report covers the period from April 1 to June 30, 2012. The U.S. Embassy reported that, as of
June 30, 2012, $3.162 billion in civilian assistance funds for fiscal years 2010, 2011, and 2012 had been
obligated and that $2.876 billion had been spent since fiscal year 2010.

Program status information in this report is based on information provided by the departments and
agencies working in Pakistan—the Departments of Agriculture, Commerce, Defense, and State, and the
U.S. Agency for International Development, U.S. Institute of Peace, and U.S. Trade and Development
Agency. In most instances, this information has not been independently verified or audited. The
information on program oversight comes from audits, reviews, and investigations performed by the
Offices of Inspector General of the U.S. Agency for International Development and the Departments of
Agriculture, Defense, Homeland Security, Justice, and State, as well as by the Government
Accountability Office.



                  /s/                   .
Michael G. Carroll
Deputy Inspector General
U.S. Agency for International Development



                /s/                       .
The Honorable Harold W. Geisel
Deputy Inspector General
Department of State



                 /s/                      .
Lynne M. Halbrooks
Acting Inspector General
Department of Defense
Contents
Executive Summary ........................................................................................................................................................... 1
Background.......................................................................................................................................................................... 4
Program Status ................................................................................................................................................................... 8
    Energy ............................................................................................................................................................................ 11
    Economic Growth ....................................................................................................................................................... 14
    Stabilization ................................................................................................................................................................... 20
    Education ....................................................................................................................................................................... 29
    Health ............................................................................................................................................................................. 33
    Crosscutting Priorities: Good Governance, Gender Equity, and Greater Transparency ......................... 37
    Humanitarian Assistance ........................................................................................................................................... 42
    Assistance to Pakistani Institutions ......................................................................................................................... 48
Staffing ................................................................................................................................................................................ 53
Risks and Mitigation Strategies ..................................................................................................................................... 55
Oversight Status ............................................................................................................................................................... 60
    Department of Defense Office of Inspector General ........................................................................................ 60
    Department of State Office of Inspector General .............................................................................................. 60
    USAID Office of Inspector General........................................................................................................................ 63
    U.S. Department of Agriculture Office of Inspector General .......................................................................... 71
    Government Accountability Office ......................................................................................................................... 71
    Completed Oversight Reports as of June 30, 2012 ............................................................................................ 72
Appendix—Abbreviations ............................................................................................................................................. 78
Executive Summary
The Enhanced Partnership with Pakistan Act of 2009, Public Law 111-73 (October 15, 2009), authorizes
democratic, economic, and development assistance to Pakistan of up to $1.5 billion per year from fiscal
year (FY) 2010 to FY 2014, for a total of $7.5 billion. The U.S. Department of State’s Pakistan Assistance
Strategy Report, issued in December 2009, guides the U.S. Government’s civilian assistance program in
Pakistan, which is designed to build trust and a long-term partnership between the two countries by
strengthening mutual security, stability, and prosperity.

The U.S. Embassy reported that, as of June 30, 2012, $3.162 billion in civilian assistance funds for
FYs 2010, 2011, and 2012 had been obligated and that $2.876 billion had been spent since FY 2010.1
These funds are intended to address the country’s most critical infrastructure needs, help the Pakistani
Government meet its citizens’ basic needs and provide improved economic opportunities, and
strengthen Pakistan’s capacity to pursue economic and political reforms that reinforce stability.

Challenges to implementation of the civilian assistance program in Pakistan remain in every sector.
Limited technical capacity, corruption, and a shift toward more decentralized governance have affected
the implementation of many assistance efforts. Implementing partners and program participants are
sometimes subject to criticism and harassment for their association with U.S. Government efforts.
Assistance programs are also hindered by strict Government of Pakistan requirements for travel outside
Islamabad and provincial capitals. Program staffing and events have been hampered by the denial of visas
and visa extensions to U.S. Government employees. Despite these challenges, implementation of
assistance programs continued.

The U.S. Agency for International Development (USAID) continued to implement programs through
Pakistani institutions, including national and provincial governments and nongovernmental organizations
(NGOs). During FYs 2010 and 2011, USAID awarded more than $1.7 billion to governmental and
nongovernmental Pakistani institutions. From October 1, 2011, through June 30, 2012, USAID made
awards to these groups totaling $398.8 million. To overcome risks to its programs and improve
monitoring and oversight of them, USAID continued to conduct preaward assessments of local
implementing partners. USAID also began to conduct broad-based monitoring and evaluation activities
under a new institutional contract to enhance the mission’s oversight.

To protect USAID funds against waste and theft, USAID’s Office of Inspector General (OIG) pursued
hotline complaints and conducted investigations and audits. In May 2012, USAID proposed the Sindh
Rural Support Organization for debarment after an OIG investigation revealed mismanagement, theft,
and corruption associated with the organization’s participation in several USAID-funded projects. Later

1
  U.S. Government expenditures from FY 2010 to date exceed the amount of assistance funding obligated in
FYs 2010, 2011, and 2012, because they include expenditures of funds obligated in previous fiscal years.


                                                                                                        1
that month, USAID agreed with the Rafi Peer Theater Workshop to end its cooperative agreement to
implement the Children’s Television Project after OIG investigators referred initial findings regarding
violations of USAID procurement policies and standards to the USAID mission in Pakistan.

During the quarter, USAID OIG issued two performance audits, one review, six financial audits, and two
quality control reviews relating to Pakistan. The financial audits and reviews identified $4.1 million in
questioned costs and recommended funds to be put to better use. Meanwhile, OIG’s April 2012
performance audit of USAID’s Entrepreneurs Project found that, although it had provided training and
technical instruction to help the owners of microenterprises improve their commodities, it was not
possible to determine whether the project was achieving its overall goal of increasing the incomes of
owners of microenterprises because USAID/Pakistan had not yet started tracking income changes.
OIG’s May 2012 audit of USAID support of the Benazir Income Support Program found that USAID’s
first installment of $85 million transferred to the Government of Pakistan for the program was
disbursed to approximately 480,000 beneficiaries who were given regular cash payments as a way of
stabilizing the economy. In July 2010, USAID provided a second installment of $75 million to the
Government of Pakistan for use in the program but as of March 2012 had not authorized the
government to transfer this money to the program because mission officials were unable to verify that
the program had implemented an effective monitoring and evaluation plan.

The U.S. Department of State (DOS) OIG also completed work related to Pakistan during the quarter.
A DOS OIG evaluation of the Antiterrorism Assistance (ATA) Program in the Near East and in South
and Central Asia found that the Department had no assurance that the program was achieving intended
statutory purposes or that the overall or individual programs were successful because the bureau
managing the program had not developed outcome-oriented program objectives or established a
mechanism for evaluating the program. DOS OIG also noted that the bureau had not developed a
process for ensuring that contractors responsible for providing ATA training were meeting
requirements. Furthermore, equipment provided under the program was sometimes unused or
incompatible with the partner country’s existing equipment and, in some cases, exceeded the country’s
needs.

DOS OIG also issued a follow-up report on the performance of Embassy Islamabad. DOS OIG
inspectors credited Embassy leadership with effectively managing the fallout from major events in the
relationship with Pakistan during 2011. According to the OIG report, Embassy reporting provided a
clear-eyed assessment of realities in Pakistan and sober advice to Washington on how to deal with those
realities. However, according to DOS OIG, Embassy leadership needed to accelerate its assessment of
the implications of the changing relationship between the United States and Pakistan. OIG inspectors
also observed that the mission struggled to program more than $2 billion in annual funding for
development and security assistance programs and to manage proposed staffing increases and housing
needs.




                                                                                                       2
Meanwhile, in May 2012, the Government Accountability Office (GAO) issued a report on U.S.
Government efforts to assist Pakistan in countering improvised explosive devices (IEDs), which are a
significant source of fatalities in Pakistan and among U.S. and coalition forces in Afghanistan. Several U.S.
agencies are engaged in efforts to assist Pakistan in countering IEDs. These agencies face a variety of
challenges in carrying out their activities, such as delays in obtaining visas and in the delivery of
equipment. GAO found that DOS had established a performance indicator and targets to track some of
Pakistan’s counter-IED efforts. However, GAO observed that these performance metrics did not cover
the full range of U.S.-assisted efforts. DOS agreed with GAO’s recommendation to broaden the scope
of metrics to better reflect and evaluate interagency participation in counter-IED efforts.




                                                                                                           3
Background
U.S. civilian assistance to Pakistan is important to maintaining the long-term strategic partnership that
the U.S. Government sought to forge with the Government of Pakistan and its citizens through the
Enhanced Partnership with Pakistan Act of 2009, Public Law 111-73 (October 15, 2009). The act
authorized $1.5 billion per year for FYs 2010–2014, for a total of $7.5 billion, to support democratic,
economic, and development assistance.

In 2009, DOS developed a strategy for providing civilian assistance to Pakistan.2 The strategy’s
objectives include addressing the country’s most critical infrastructure needs; helping the Pakistani
Government meet basic needs and provide improved economic opportunities, especially in areas most
vulnerable to extremism; and strengthening Pakistan’s capacity to pursue economic and political reforms
that reinforce stability. The strategy initially focused on high-impact, high-visibility infrastructure
programs, the provision of humanitarian and social services, and improved governance and security. In
2011, USAID and DOS refined the strategy to focus assistance on energy, economic growth,
stabilization, education, and health. Programs in these sectors incorporate crosscutting themes of good
governance, gender equity, and greater transparency.3

The U.S. assistance effort in Pakistan continues to face political challenges. In late November 2011, a
cross-border incident involving North Atlantic Treaty Organization (NATO) and Pakistani forces
claimed the lives of 24 Pakistani soldiers. This incident and other security and political developments in
2011 prompted some elected officials in the United States and Pakistan to call for a reevaluation of the
relationship between the two countries. In April 2012, Pakistan’s parliament approved a resolution
condemning the November incident, calling for a review of the U.S. footprint in Pakistan, and stressing
the need for Pakistan-U.S. relations to be based on the mutual respect for one another’s sovereignty,
independence, and territorial integrity. As U.S. officials worked with the Government of Pakistan to
reset elements of the relationship between the two nations in line with the National Assembly’s
recommendations, Pakistan’s Supreme Court disqualified Prime Minister Yousaf Raza Gillani from office.
On June 22, parliament elected a new prime minister, Raja Pervez Ashraf.

Meanwhile, security conditions in Pakistan continued to complicate project design, implementation, and
monitoring. U.S. Government personnel are subject to security-related travel restrictions, and project
activities are often delayed or cancelled because of security issues. In addition, following the incident on
the Afghanistan-Pakistan border in late November 2011, U.S. Government partners have been under
heightened scrutiny and, sometimes, threat for their association with the U.S. assistance efforts. In late


2
 Pakistan Assistance Strategy Report, December 14, 2009.
3
 Office of the Special Representative for Afghanistan and Pakistan, Status Report: Afghanistan and Pakistan Civilian
Engagement, November 2011.


                                                                                                                       4
March, a USAID implementing partner’s vehicle was attacked, and two people associated with the U.S.-
funded project were killed and a third injured. According to a database of major security incidents
against aid workers, 24 aid workers have been killed in Pakistan, 23 wounded, and 30 abducted from
October 2009 to June 2012.4

Since the ratification of the Enhanced Partnership with Pakistan Act, the U.S. Congress has appropriated
$3.604 billion in civilian assistance funding for Pakistan through four foreign operations accounts. As of
June 30, 2012, the U.S. Embassy in Islamabad reported that U.S. Government agencies had obligated
$2.255 billion of this total (Table 1). Other assistance funds for Pakistan, such as International Disaster
Assistance, Food for Peace, Migration and Refugee Assistance (MRA), and Emergency Refugee and
Migration Assistance (ERMA), are not designated for use in specific countries during the appropriations
process. These other funds are not shown in Table 1.

                   Table 1. Civilian Assistance to Pakistan by Fund and Agency for
                         Select Foreign Assistance Funds as of June 30, 2012
                                        ($ Million; Unaudited)

                                           Appropriated*                                              Obligated
            Fund                                                                   Agency
                             FY 2010 FY 2011 FY 2012            Total                                FYs 2010–2012

    Economic Support                                                       Department of
                              1,292.0      918.9      864.7     3,075.6                                         0.3
    Fund (ESF)                                                             Commerce (DOC)
                                                                           Department of Defense
                                                                                                              10.0
                                                                           (DOD)
                                                                           DOS                                50.2

                                                                           USAID                            1,778.1
                                                                           U.S. Department of
                                                                                                              19.0
                                                                           Agriculture (USDA)
                                                                           U.S. Institute of Peace
                                                                                                                3.0
                                                                           (USIP)
                                                                           U.S. Trade and
                                                                           Development Agency                   4.6
                                                                           (USTDA)

                                                                                 Subtotal                  1,865.2

    Global Health and
    Child Survival               29.7       28.4         –         58.1    USAID                              55.9
    (GHCS)




4
    Humanitarian Outcomes, Aid Worker Security Database, 2009–12, https://aidworkersecurity.org/.


                                                                                                                  5
                                         Appropriated*                                                Obligated
            Fund                                                                 Agency
                           FY 2010 FY 2011 FY 2012             Total                               FYs 2010–2012

    International
    Narcotics and Law
                              170.0      114.3      116.0        400.3    DOS                                281.5
    Enforcement
    (INCLE)

    Nonproliferation,
    Anti-terrorism,
    Demining, and               23.9       24.8       20.8        69.5    DOS                                     52.6
    Related Programs
    (NADR)

    Total                   1,515.6    1,086.4    1,001.5      3,603.5                                     2,255.2

Source: DOS Office of Foreign Assistance Resources and U.S. Embassy Islamabad.
* Reported amounts are limited to funds that were designated for use in Pakistan during the appropriations
  process. Foreign operations appropriations for FY 2010 were provided in the Consolidated Appropriations
  Act, 2011, Public Law 111-117 (December 16, 2009) and the Supplemental Appropriations Act, 2010, Public
  Law 111-212 (July 29, 2010). Foreign operations appropriations for FY 2011 were provided in the Department
  of Defense and Full-Year Continuing Appropriations Act, 2011, Public Law 112-10 (April 15, 2011), and foreign
  operations appropriations for FY 2012 were provided in the Consolidated Appropriations Act, 2012, Public
  Law 112-74 (December 23, 2011).


The U.S. Congress considered the President’s FY 2013 budget request5 for civilian assistance to Pakistan
and introduced related appropriations measures during the reporting period. Whereas the President
requested $1.071 billion in FY 2013 ESF, INCLE, and NADR funds for civilian assistance to Pakistan, the
related appropriations measure introduced in the Senate in May provides $494 million.6 The
corresponding measure introduced in the House of Representatives does not specify amounts to be
provided for civilian assistance to Pakistan, but would increase conditions on assistance.7 Under the
House bill, before using any FY 2013 ESF or INCLE funds for Pakistan, the Secretary of State would have
to certify that the Government of Pakistan is, among other matters, cooperating in counterterrorism
efforts, dismantling IED networks, and issuing visas in a timely manner for U.S. visitors engaged in
assistance programs. As was the case last year, the FY 2013 Senate appropriations bill permits the
Secretary of State to waive this certification requirement if it is in the national security interest of the
United States to do so.



5
  U.S. Department of State, Congressional Budget Justification, Fiscal Year 2013, Volume 2: Foreign Operations,
February 13, 2012.
6
  For more information on this topic, refer to S. 3241 and accompanying Senate Report 112-172.
7
  See H.R. 5857 and accompanying House Report 112-494 for additional detail.


                                                                                                                    6
                                             Map of Pakistan




Source: USAID Office of Transition Initiatives, Geographic Information Unit.




                                                                               7
Program Status
The U.S. departments and agencies delivering development assistance in Pakistan are implementing
programs in energy, economic growth, stabilization, education, and health; the crosscutting areas of
governance, gender equity, and greater transparency; and humanitarian assistance. Table 2 and the
sections that follow it provide information on the status of the programs in these areas.

The U.S. Embassy reported that as of June 30, 2012, $3.162 billion in civilian assistance funds from
FYs 2010, 2011, and 2012 had been obligated and that $2.876 billion in funding had been spent to
support the civilian assistance strategy since FY 2010 (Table 2).

 Table 2. Civilian Assistance to Pakistan by Sector, Agency, and Fund as of June 30, 2012
                                  ($ Million; Unaudited)

                                                       Obligated*                       Disbursed
     Managing
                              Fund                                                                 †
  Agency or Office                                                                    FYs 2010–2012
                                       FY 2010      FY 2011    FY 2012      Total

 Energy

 USAID                  ESF                  98.3         –           –        98.3           143.8

 Subtotals                                  98.3          –           –        98.3           143.8

 Economic Growth

 DOC                    ESF                   –          0.3          –         0.3             2.6

 USAID                  ESF                 284.6      267.6          –       552.3           348.5

 USDA                   ESF                  19.0         –           –        19.0            13.2

 USTDA                  ESF                   3.8         –          0.8        4.6             3.0

 Subtotals                                 307.4       267.9         0.8      576.2           367.3

 Stabilization

 DOD                    ESF                  10.0         –           –        10.0             1.0

 Economic Section
                        NADR                 15.0       10.7          –        25.7              –
 (ECON), U.S. Embassy




                                                                                                     8
                                                      Obligated*                       Disbursed
    Managing
                               Fund                                                               †
 Agency or Office                                                                    FYs 2010–2012
                                        FY 2010    FY 2011    FY 2012    Total

Narcotics Affairs        ESF                  –          –          –            –           11.4
Section (NAS),
U.S. Embassy             INCLE             166.0      114.4        1.1    281.5             106.3

Political Section
                         NADR                1.6        1.8        0.8       4.2              2.6
(POL), U.S. Embassy

Regional Security
Office (RSO),            NADR               15.4        7.3         –       22.7             23.1
U.S. Embassy

USAID                    ESF                34.2       51.2         –       85.4            104.1

USIP                     ESF                 3.0         –          –        3.0              1.1

Subtotals                                  245.2      185.3        1.9    432.4             249.6

Education

Public Affairs Section
                         ESF                19.5       19.5         –      39.0              42.6
(PAS), U.S. Embassy

USAID                    ESF               206.5      116.7         –     323.2             197.7

Subtotals                                  226.0      136.2         –     362.2             240.3

Health

USAID                    ESF / GHCS        224.3       95.6         –     319.9             186.0

Subtotals                                  224.3       95.6         –     319.9             186.0

Crosscutting Priorities: Good Governance, Gender Equity, and Greater Transparency

                         ESF                 2.2         –          –        2.2              1.1
Bureau of Democracy,
Human Rights, and        Human Rights
Labor (DRL), DOS         & Democracy         2.1         –          –        2.1              1.1
                              ‡
                         Fund

                         Consular and
                         Diplomatic          6.9        9.3        5.5      21.8             11.1
PAS                      Programs

                         ESF                  –         9.0         –        9.0              7.1


                                                                                                 9
                                                                  Obligated*                           Disbursed
        Managing
                                  Fund                                                                            †
     Agency or Office                                                                                FYs 2010–2012
                                               FY 2010       FY 2011      FY 2012         Total

    USAID                   ESF                       97.6         22.4            –        120.0               63.7

    Subtotals                                       108.8          40.8           5.5       155.0               84.1

    Humanitarian Assistance

    Population, Refugees,   MRA                       57.0         33.5          12.2       102.7              102.2
    and Migration Section
                        §
    (PRM), U.S. Embassy     ERMA                      33.0           –             –          33.0              33.0

                            ESF                      335.0           –             –        335.0              677.5

                            Food for
                                                      96.8        115.1          68.1       279.9              279.9
                            Peace
    USAID
                            International
                            Disaster                 265.0        163.0          39.4       467.3              512.3
                            Assistance

    Subtotals                                       786.7        311.5         119.7      1,218.0           1,604.9

    Totals                                        1,996.8      1,037.3         127.8      3,161.9           2,876.0

Source: U.S. Embassy Islamabad.

Note: In some cases, numbers do not sum to provided subtotals and totals because of rounding. A dash indicates
a value of zero.

* Obligations are reported by the fiscal year in which funds were appropriated.

†    Disbursement figures refer to funds disbursed in FYs 2010–2012, regardless of when the funds were
     appropriated or obligated. Some disbursements during this period were of funds appropriated before FY 2010.
     As a result, these figures cannot be used to determine how much of the obligated funding reported in this table
     remains unexpended.

‡    DRL has provided additional assistance to Pakistan as part of a grant program that also funds activities in Saudi
     Arabia. Because the level of funding provided for activities in Pakistan in particular is not available, funds
     associated with the grant program are not included in this table.

§    In addition to these funds, PRM provides funding to assist Afghan refugees in the region, including those in
     Pakistan. PRM obligated $215.1 million in FY 2010–2012 funds, and disbursed $180.4 million from October 1,
     2009, to June 30, 2012, for this regional effort.




                                                                                                                   10
Energy
Nearly half of the Pakistani population lacks access to modern energy services. With diminished
hydroelectric generation because of low water levels, rolling blackouts often last 8 to 20 hours,
constraining economic development and disrupting health, education, and other services. This form of
energy rationing will likely continue until the monsoon rains fill the reservoirs.

Power shortages have serious implications. According to the Asian Development Bank, power and gas
shortages have reduced economic growth by 3–4 percent over the last 2 years. In addition to stunting
growth, persistent difficulties in the sector can be destabilizing. In late June, anger over limited electrical
supplies led to riots in which Pakistani Government buildings were attacked and two deaths occurred.

High subsidies, low tariff collection rates, and distorted prices have discouraged private companies from
investing in energy infrastructure and building additional capacity. The U.S. Government and other
donors provide technical assistance to help the Pakistani Government develop appropriate energy
pricing, regulatory, and privatization policies and assist in implementing Pakistan’s energy reform plan. In
addition, the United States aims to increase electricity generation, decrease transmission losses, and
increase cost recovery by investing in selected energy infrastructure.

USAID. USAID has nine energy programs under way (Table 3). To meet growing energy demands,
USAID’s programs seek to help the Pakistani Government supply hydropower through the completion
of the Gomal Zam and Satpara Dams and the rehabilitation of the Tarbela Dam. USAID is also
rehabilitating three thermal power stations. Table 3 lists USAID’s active programs in this category of
assistance.

                Table 3. USAID Energy Programs as of June 30, 2012 (Unaudited)

                                                    Start      End          Implementing           Funding
       Name                  Description
                                                    Date       Date           Partner                ($)

                                                                         International
Energy Efficiency      Improves efficiency of
                                                     3/09       7/12     Resources Group            28,500,000
Program                tube wells
                                                                         and Khushhali Bank

                       Provides technical and
                       engineering support to                            Advanced
Energy Policy          USAID-funded                                      Engineering
                                                    10/08       1/15                                16,336,559
Project                infrastructure projects                           Associates
                       implemented by the                                International
                       Government of Pakistan

                       Increases hydropower                              Water and Power
Gomal Zam Dam
                       capacity and builds           1/11      12/12     Development                40,000,000
Project
                       transmission lines                                Authority (WAPDA)


                                                                                                            11
                                                         Start   End       Implementing       Funding
      Name                      Description
                                                         Date    Date        Partner            ($)

                                                                         Central Power
                          Repairs and maintains a
Guddu Project                                            5/10    6/13    Generation            18,068,000
                          thermal power station
                                                                         Company Limited

                          Rehabilitates a thermal                        Jamshoro Power
Jamshoro Project                                         5/10    6/13                          18,360,000
                          power station                                  Company Limited

                                                                         Northern Power
Muzaffargarh              Rehabilitates a thermal
                                                         5/10    6/13    Generation            15,193,000
Project                   power station
                                                                         Company Limited

                          Improves management
Power                     capacity, financial systems,
                                                                         International
Distribution              billings, and collections of   9/10    3/15                          29,499,409
                                                                         Resources Group
Project                   power distribution
                          companies

Satpara Dam               Increases hydropower
                                                         1/11    4/13    WAPDA                 19,000,000
Project                   capacity by 17 megawatts

Tarbela Dam               Rehabilitates a
                                                         4/10    12/12   WAPDA                 16,500,000
Project                   hydropower station

Source: USAID/Pakistan.


As of June 30, 2012, USAID reported that 500 megawatts of energy had been added to or saved in
Pakistan’s national grid as a result of U.S. Government-supported construction and rehabilitation
efforts. USAID also reported the following accomplishments in its portfolio of energy programs:

    Progress continued on the six signature energy projects involving rehabilitation and construction of
    hydroelectric and thermal power plants that Secretary Clinton announced in October 2009 and July
    2010. During the reporting period, USAID amended the agreements for the three thermal power
    plants at Guddu, Jamshoro, and Muzaffargarh to comply with Pakistani Government banking
    procedures and to help guarantee that sufficient dollars are available to implementers for them to
    make foreign exchange procurements.           These changes translated into increased cash
    reimbursements to the Government of Pakistan, which amounted to a cumulative total of
    approximately $76 million by the end of May 2012.

    During the quarter, General Electric signed an agreement with the Guddu Thermal Power Plant to
    rehabilitate a portion of the power plant that is expected to add 75 megawatts to Pakistan’s national
    grid.


                                                                                                      12
   Since early 2010, projects at the thermal power plants at Jamshoro and Muzaffargarh have added
   25 megawatts and 280 megawatts, respectively, of power generation capacity to the country.

   USAID-funded work on the Tarbela Dam has increased its power generation capacity by 128
   megawatts. Now that this capacity has been installed, project efforts are focused on pre-shipment
   inspections of the computer system to monitor and control the dam and of the digital controls for
   the dam’s turbines.

   USAID-sponsored capacity-building efforts under the Energy Efficiency, Energy Policy, and Power
   Distribution Projects continued at more than 20 key government institutions with responsibilities
   relating to the performance of the power sector. More than 1,000 Government of Pakistan officials
   have received technical training on critical energy activities aimed at improving operational
   performance, customer service, and financial results.

   Women working in engineering, customer service, and other departments of the Islamabad Electric
   Supply Company continued to receive information technology training as part of the Power
   Distribution Project. The project is helping reform the energy sector by improving the performance
   of Pakistan’s power distribution companies so that they can reduce losses and generate more
   revenue. In total, 1,100 people are being trained.

   The main component of the Energy Efficiency Program was intended to demonstrate potential
   energy savings throughout the agricultural sector by replacing old, inefficient tube well pumps with
   more efficient equipment. The program succeeded in saving approximately 10.4 megawatts of
   power, but pricing policies for water and electricity reduced financial incentives for farmers to
   replace inefficient pumps. USAID decided to end the program by July 31, 2012, and focus instead on
   demand management through energy distribution companies.

   The Power Distribution Project has saved a total of 50.6 megawatts of power through its efforts to
   improve distribution company performance by introducing new technology and improved work
   practices in all nine government-owned distribution companies.         The project is also (1)
   strengthening distribution company governance through assistance to the Ministry of Water and
   Power and distribution company boards of directors, (2) reducing losses and improving revenues
   and customer services through technical and procedural system improvements, and (3) improving
   institutional performance through capacity building and training.

USAID reported that it continues to experience challenges in implementing energy projects at the
Guddu, Jamshoro, and Muzaffargarh thermal power plants. These generating companies are having
difficulties completing their procurements, which has slowed down project disbursements. In response,
USAID has increased the personnel capacity building component of the thermal plant projects in
procurement, and in financial, human resources, and administrative management. USAID has also been
closely collaborating with Pakistan’s Ministry of Water and Power and the Economic Affairs Division of
the Ministry of Economic Affairs and Statistics to address project bottlenecks.

                                                                                                    13
Economic Growth

Over the past 3 years, Pakistan has experienced high inflation and relatively low or stagnant economic
growth—stagflation. The combination of stagflation, falling exports, and multibillion-dollar repayments
to the International Monetary Fund has reduced confidence in the rupee, and these factors could
contribute to balance-of-payments problems for Pakistan.

Nationally, unemployment exceeds 12 percent, and rates are higher in urban areas. Although small
businesses provide the majority of new employment, they lack access to finance. Similarly, the
agricultural sector, which accounts for 21 percent of Pakistan’s gross domestic product and employs
44 percent of the labor force, is constrained by insufficient investment and inappropriate policies.

The U.S. Government’s assistance program for Pakistan is designed to stimulate broad-based, inclusive
economic growth, particularly in agriculture, trade, and entrepreneurship, through projects that support
policy reform, improve access to finance, improve trade conditions, assist in workforce development,
increase agricultural productivity, and improve water management. DOC, USAID, USDA, and USTDA
support programs under this category of assistance.

DOC. DOC has five programs and activities that support the Embassy’s economic growth initiative.

   Market research. This program aims to provide interested investors with information about
   promising sectors of Pakistan’s economy,

   Preliminary information memorandum development. This activity is designed to highlight projects with
   high potential for financial return.

   Event management. DOC sponsors investment promotion events and business exchanges between
   Pakistan and the United States under its Event Management Program.

   Commercial law. The Commercial Law Development Program provides technical assistance in
   commercial law to foreign governments and private sector representatives with the aim of
   supporting their economic development goals. This year’s programming focuses on university-based
   innovation and entrepreneurship with an emphasis on technology licensing. The program has been
   working with Pakistan’s Higher Education Commission, select Pakistani universities, and key private
   sector stakeholders to establish technology transfer offices and technology incubators on university
   campuses, and plans to conduct a range of associated activities this fall.

   International visitor training and business association development. These activities are designed to
   accelerate the diversification of Pakistan’s exports and to connect Pakistani entrepreneurs with the
   long-term business partners and suppliers they will need to sustain Pakistan’s economic growth. In
   May and June 2012, DOC led a delegation of Pakistani gem and jewelry business leaders from
   Balochistan, Gilgit-Baltistan, and Punjab on a mission to the United States. The delegation traveled

                                                                                                     14
    to three U.S. cities to attend the premier industry trade show; meet with U.S.-based retailers,
    government officials, trade groups, and industry associations; and receive branding and marketing
    training.

DOC reported that the security situation in Pakistan poses a significant challenge to its assistance
programs and activities. Experts who traveled to Pakistan in the past are now declining to travel, so
DOC has worked to expand its network of experts. DOC also noted that delays in accessing program
funds have created challenges in front-end participant recruitment and event scheduling. These delays
have also limited the amount of time available to process U.S. visa applications for Pakistanis scheduled
to attend events in the United States.

USAID. USAID currently has ten programs and three transfers of funds to other agencies (Table 4)
that contribute to agriculture and economic growth objectives. These programs support trade
facilitation, development of provincial irrigation systems, and production and sale of agricultural
commodities, among other activities.

Table 4. USAID Programs to Promote Economic Growth as of June 30, 2012 (Unaudited)

                                                   Start    End         Implementing          Funding
      Name                  Description
                                                   Date     Date          Partner               ($)

                      Increases productivity,
Agribusiness          product quality, and                           Agribusiness Support
                                                   11/11    11/16                              36,700,000
Project               competitiveness of                             Fund
                      agribusiness value chains*

                      Strengthens evidence-
                                                                     International Food
Agriculture Policy    based policy analysis for
                                                   7/11      7/15    Policy Research           23,600,000
Project               food security and
                                                                     Institute
                      macroeconomic stability

                                                                     United Nations
Balochistan
                      Helps improve livelihoods                      (U.N.) Food and
Agriculture                                        1/09     12/15                              16,300,000
                      and food security                              Agriculture
Project
                                                                     Organization

                                                                     Dairy and Rural
                      Improves milk production
Dairy Project                                      7/11      7/14    Development                4,000,000
                      and increases sales
                                                                     Foundation

                      Supports women’s                               Mennonite Economic
Entrepreneurs
                      microenterprises in          6/09      6/14    Development               26,826,069
Project
                      vulnerable areas                               Associates




                                                                                                      15
                                                   Start    End         Implementing          Funding
      Name                 Description
                                                   Date     Date          Partner               ($)

                     Assists small and
                     medium-size enterprises
                     in areas vulnerable to
Firms Project                                      5/09      4/13     Chemonics               72,388,726
                     conflict to help them
                     become internationally
                     competitive

                     Provides flood control
Gomal Zam            and irrigation water to
                                                   10/11     9/14     WAPDA                   79,256,031
Irrigation Project   160,000 acres to increase
                     agricultural output

                     Provides technical
                     expertise to support the
                     establishment of public-
Grain Storage                                                         International Finance
                     private partnerships for      4/11     10/12                              2,500,000
Project                                                               Corporation
                     managing, handling, and
                     storing strategic grain
                     reserves

                     Provides flood control
Satpara Irrigation   and irrigation water to                          WAPDA / Aga Khan
                                                   1/11      3/17                             19,628,000
Project              15,000 acres to increase                         Foundation
                     agricultural output

                     Improves customs
                     procedures and the
                     Pakistani Commercial
Trade Project                                      6/09      6/13     Deloitte                20,323,820
                     Service to increase
                     exports and trade at the
                     Afghan border

                     Provides business and
                     legal capacity building and
                     exchanges for Pakistani
                                                           Renewed
Transfer to DOC      entrepreneurs,                2011               DOC                      4,000,000
                                                           annually
                     government ministries,
                     universities, and legal and
                     business institutions




                                                                                                     16
                                                      Start    End        Implementing           Funding
      Name                      Description
                                                      Date     Date         Partner                ($)

                          Improves production and
                          sales of commodities,
                          enhances government                 Renewed
Transfer to USDA                                      2009               USDA                    40,000,000
                          research and extension              annually
                          work, and helps eradicate
                          agricultural diseases

                          Conducts feasibility
                          studies and provides
Transfer to               technical assistance in             Renewed
                                                      2009               USTDA                    8,000,000
USTDA                     transportation, energy,             annually
                          communications, and
                          food security

Source: USAID/Pakistan.

* A value chain includes all activities required to produce a product or service and deliver it to the final
  customer. Value chains include activities such as production, marketing, and distribution.


As of June 30, 2012, USAID reported that 701,341 rural households had benefited directly from U.S.
Government assistance. USAID also reported the following examples of progress and success in its
portfolio of economic growth and agricultural programs:

    This quarter, the Agribusiness Project provided support to 59 women entrepreneurs. The project
    provided enterprise development and technical training as well as equipment to 32 women
    entrepreneurs to develop labels and packaging for pickle products to increase their marketability.
    The project provided 13 women from Gilgit-Baltistan with regional exposure and instruction in
    supply chain management, and 6 others with the opportunity to display their products at agricultural
    expos in Lahore and Karachi. Eight other women entrepreneurs received training in good
    agricultural practice certification and on the conduct of food safety audits for food processing and
    packing operations.

    The implementer for the Agribusiness Project also trained 90 Pakistanis to certify horticultural and
    livestock products—a requirement for exporting to Europe. In addition, the project signed a
    memorandum of understanding with the Sindh Enterprise Development Fund to undertake joint
    agribusiness sector activities.

    Three districts were added to the Balochistan Agriculture Project area, increasing the total to eight.




                                                                                                         17
   The Dairy Project, in partnership with Nestle, trained 1,961 farmers in farm and livestock
   management, 184 farmers in artificial insemination, and 370 female livestock extension workers in
   livestock management and milk-marketing techniques. The project is also running a media campaign
   regarding breed improvement, best management practices, and marketing.

   The Entrepreneurs Project registered and trained 2,266 producers in improved production
   practices, bringing the number of owners of microenterprises benefiting from this project to 22,959.

   The Grain Storage Project received 12 applications from private companies and prequalified 7 to
   make a bid to take over some government grain storage functions. The volume of applications
   points to substantial private sector interest in grain storage coinvestment opportunities.

   WAPDA continued to complete work on the Gomal Zam Irrigation Project as planned. WAPDA
   completed work on an earthen wall to provide flood protection and completed more than 50
   percent of the work on the main canal and a gated concrete water diversion structure.

   A private sector component of the Satpara Irrigation Project was awarded to the Aga Khan
   Foundation in March 2012. The project will irrigate 15,000 acres and help 30,000 beneficiary
   families irrigate their cropland and grow high-value crops, thereby increasing incomes and creating
   employment.

   The Trade Project finished its assessment of Khokarapar as a prospective border crossing for trade
   between Pakistan and India, and submitted its report to Pakistan’s Federal Board of Revenue. In
   addition, at the request of the Ministry of Commerce, the Trade Project shared its report on
   infrastructure and processes at the border crossing at Wagah-Attari. The report identifies
   bottlenecks hampering trade at the Pakistan-India border.

USAID also reported challenges in implementing its economic growth and agriculture programs. USAID
cited security as an ongoing challenge. In late March, a Balochistan Agriculture Project vehicle was
attacked, and two people associated with the project were killed and a third injured. The USAID
mission also noted that obtaining long-term visas for expatriate implementers poses a significant
challenge.

USDA. USDA continues to manage agricultural development programs with funding from USAID.
These programs provide assistance to increase agricultural productivity through technical exchanges,
agricultural research, and control of plant and animal diseases. USDA programs are implemented
through international organizations. These institutions, in turn, work with Pakistani universities,
Pakistani agricultural research groups, and government agencies to implement program activities.

USDA reported the following examples of progress and success for the quarter:




                                                                                                    18
Under the Wheat Productivity Enhancement Program, 181 stem-rust samples were collected in
Pakistan and sent to USDA labs for analysis. Field trials across Pakistan were evaluated in the field
and, after harvest, yields were measured, documented and evaluated. Program representatives
conducted field surveys in the Murree, Kaghan Valley, Abbottabad, and Mansehra areas for alternate
wheat-rust hosts and found large populations of barberry infected with wheat rust.

Vaccination campaigns and efforts to build laboratory capacity continued under the USDA Program
for Progressive Control of Foot and Mouth Disease. More than 47,000 vaccines have been
administered under the program at 15 sites in 6 provinces and territories. The program upgraded
diagnostic lab capacity by bringing three new labs online this quarter, brining the total to seven labs
supporting foot and mouth disease diagnosis and monitoring.

Under the Cotton Productivity Enhancement Program, implementing partners conducted two 10-
day train-the-trainer courses with 40 small farmers in each. The courses introduced new agronomic
practices that can reduce the impact of cotton curl leaf virus on cotton yield. Over 1,200 varieties
of cottonseed were imported and planted in Punjab and Sindh to screen for resistance to cotton
curl leaf virus and evaluate the plants’ environmental suitability.

Under the Plant and Animal Health Regulatory Capacity Building Program, USDA’s implementing
partner, the Centre for Agricultural Bioscience International, initiated a distance learning program
on plant and animal health. Experts from the implementing partner, Texas A&M University, USDA,
and Pakistani regulatory authorities met to prioritize course subjects, design course format, and plan
course content.

Under the Watershed Rehabilitation Program, the International Center for Agricultural Research in
the Dry Areas and its implementing partner at the Faisalabad Research Center conducted the first
Farmers’ Field Day to introduce new irrigation technologies and on-farm, water-saving techniques to
more than 200 farmers.

Under the Aquaculture Feed Trial and Fisheries Productivity Enhancement Program, USDA’s
implementing partner, the American Soybean Association, imported more than 20 tons of U.S. feed
and distributed more than 1,500 fingerlings to participating fish farmers to initiate the first feeding
trials. The American Soybean Association and the Pakistan Fisheries Development Board identified
a Pakistani feed miller to participate in the program to produce high-efficiency floating fish feed.

USDA continues to work with host-government authorities. During the quarter, USDA successfully
engaged the new Ministry of National Food Security and Research to provide formal support for
USDA programs. USDA also continued to strengthen its technical links to Pakistani Government
agencies and research centers and Pakistani universities through exchange programs and site visits
from USDA technical experts in watershed management, crop forecasting, and sanitary and
phytosanitary regulation.


                                                                                                    19
USTDA. USTDA funds various forms of technical assistance, feasibility studies, reverse trade missions,
and business workshops that support the development of modern infrastructure and a fair and open
trading environment. In Pakistan, USTDA activities emphasize infrastructure improvement in energy,
transportation, and food security, and link Pakistani development interests with U.S. exports and
American companies offering project solutions. USTDA measures the success of its activities both in
terms of resulting U.S. goods and service exports and positive development impacts in Pakistan.

USTDA works with Pakistani grantees in the public and private sectors to conduct feasibility studies and
technical assistance activities. USTDA competitively selects U.S. contractors to perform expert
assessments and reverse trade missions.

USTDA is currently in the process of implementing its program using the FY 2011 Economic Support
Funds transfer that it received in February 2012.

USTDA reported several noteworthy project developments and successes over the reporting period.

    In May 2012, USTDA awarded a grant to Premier Mercantile Services, a private sector port and
    freight logistics operator in Pakistan. This grant funds technical assistance to facilitate the acquisition
    and operation of a fleet of locomotives on the Karachi-Lahore Railway, an initiative central to
    improving the capacity of one of Pakistan’s most important trade corridors and promoting
    continued economic growth in northern Pakistan.

    A recently completed USTDA-funded feasibility study for biomass cogeneration8 for a paper mill
    prompted the owner of the mill to begin pursuing the acquisition of a 60-megawatt biomass boiler,
    which the study found was the most practical option in terms of power generation and cost. The
    owner issued a tender for the biomass boiler system in May 2012.


Stabilization

The U.S. Government seeks to enhance stability in border areas and regions vulnerable to violent
extremism. The U.S. Government supports the Government of Pakistan’s efforts in the Federally
Administered Tribal Areas (FATA) and Khyber Pakhtunkhwa through short-term development activities,
long-term investments in infrastructure, and support for incremental improvements in governance.
Stabilization activities are guided by the U.S. Government’s strategy for stabilization of Pakistan and
closely aligned with USAID’s 2010 Post-Crisis Needs Assessment for Khyber Pakhtunkhwa and FATA.
Activities include improving the responsiveness and effectiveness of the Pakistani Government in
restoring citizen trust, stimulating employment and livelihood opportunities, ensuring the delivery of



8
  Biomass cogeneration is the burning of low-value byproducts to create electricity, and the conversion of the heat
lost in the process to steam or hot water for thermal energy.


                                                                                                                20
basic services, countering radicalization, and fostering reconciliation. The U.S. Embassy’s ECON, NAS,
POL, and RSO support ongoing assistance programs in this category, as do USAID and USIP.

ECON. The Economic Section of the Embassy has supported U.S. stabilization efforts through the
Biosecurity Engagement Program. The program promotes the safe, secure, and responsible use of
biological materials that are at risk of accidental release or intentional misuse. Program objectives
include supporting best practices in biorisk management, improving laboratory capacity to conduct
disease surveillance and diagnostics, and fostering international scientific partnerships through
collaborative research and development. Following the November 2011 cross-border incident involving
NATO and Pakistani troops, however, the Government of Pakistan suspended all Biosecurity
Engagement Program activities. DOS has reprogrammed all of the program’s FY 2011 funds planned for
Pakistan and may need to reprogram FY 2012 funds because they cannot be used during this period of
suspension.

NAS. NAS has seven programs that support improved security, legal reforms, and counternarcotics.
Aside from the limited direct assistance it provides to Pakistani NGOs to reduce demand for drugs,
NAS implements all of its projects in partnership with the Government of Pakistan. Partners include the
Ministry of Narcotics Control, the Ministry of Interior, the FATA Secretariat, Pakistani police, and
civilian law enforcement agencies.

NAS reported the following developments in its current programs:

   Aviation Program. The NAS-supported Air Wing continued to provide air support to Pakistani police
   and the Khyber Pakhtunkhwa Frontier Corps as well as to Ministry of Interior agencies. The Air
   Wing also expanded support to the Gilgit-Baltistan Government. Missions this quarter included
   counterterrorism and law and order operations, a medical evacuation, and aerial security
   operations. The Air Wing also provided air support during the visit of six members of the U.S.
   Congress to Pakistan to observe U.S.-funded projects. In total, the Air Wing flew 721.4 hours
   during the quarter.

   Corrections Program. In May and June, the program sponsored the training of nine deputy prison
   superintendents and the Deputy Secretary of Khyber Pakhtunkhwa’s Home Department at the
   International Corrections Management Training Center in Colorado. The 2-week training was
   designed for senior corrections administrators and dealt with prison management. Sessions covered
   ways to address external threats and emergency response preparedness.

   Rule of Law Program. During the reporting period, the U.S. Government delivered three courses to
   107 prosecutors and investigators in Pakistan. The program sent an additional 36 Pakistani
   prosecutors on study programs abroad to learn about combatting money laundering.

   Drug Demand Reduction Program. During the quarter, three additional grants were approved for
   Pakistan NGOs conducting drug awareness, treatment, and rehabilitation activities.

                                                                                                    21
    Law Enforcement Reform Program. Representatives of the U.S. Department of Justice’s International
    Criminal Investigative Training and Assistance Program provided training for 210 Pakistani police
    personnel from April to June 2012.

    Police Assistance Program. The program has committed support to Pakistani law enforcement
    agencies through the provision of vehicles, surveillance and operational equipment, and training, as
    well as the construction of 14 guard towers. During the quarter, the program delivered
    commodities valued at $676,700 and provided training to 54 Khyber Pakhtunkhwa police officers in
    Peshawar. In March, the program officially kicked off its project for the development of training
    modules for the Sindh Police at a press conference with the Sindh Police Inspector General.

    Crop Control and Area Development Project, Border Security Project, and Infrastructure Program. Three
    police stations built under the program in Swat were handed over to the Police Department in late
    April. Meanwhile, construction continued on the Joint Police Training Center in Nowshera and
    police headquarters and barracks complex in Swat, which were, respectively, 25 percent and 50
    percent complete at the end of the reporting period. The program reported that construction of
    headquarters and barracks in Orakzai and Kurram Agencies was 90 percent complete at the end of
    June. Two border outposts and three defense works for the Frontier Corps were also completed,
    and construction of the facility at Spina Thana progressed.

    Twenty-six kilometers of road were completed in FATA’s Khyber Agency, and 18 percent of the
    Peshawar Southern Ring Road had been built. The balance of road work and bridge-widening
    activity on the Southern Ring Road was being retendered, with the bidding process due for
    completion in mid-July.

NAS assistance efforts continue to be complicated by delays in the issuance of visas for technical
advisers, and five Law Enforcement Reform Program courses were cancelled this quarter because of
security and travel issues.

POL. The U.S. Embassy’s Political Section oversees implementation of the Export Control and Related
Border Security Assistance Program (EXBS) in Pakistan.

EXBS is designed to help participating countries improve their export control systems. In Pakistan,
EXBS assists the Government of Pakistan in stemming the proliferation of weapons of mass destruction
and their delivery systems, and in preventing irresponsible transfers of conventional weapons. Since
2004, Pakistan has made progress with EXBS assistance in strengthening its strategic trade controls
through legal and regulatory reforms and the development of licensing capacity. Building on these
successes, EXBS assistance aims to expand the capacity of Pakistani law enforcement agencies to
counter the proliferation of weapons of mass destruction and related materials.

Although Pakistan has made significant strides in adopting strategic trade control legislation, Pakistan’s
national control list omits several commodities and technologies controlled under the multilateral

                                                                                                       22
export control regimes, and this remains a concern. EXBS therefore promotes Pakistan’s adoption of a
comprehensive national control list that includes all commodities covered under the control lists of the
Nuclear Suppliers Group, Missile Technology Control Regime, Wassenaar Arrangement, and Australia
Group.

Pakistani border security agencies have poor communications infrastructure, lack needed equipment,
and face challenges in coordination across agency lines. Customs officer training is underdeveloped and
depends on foreign support. Accordingly, while focusing on trade controls, the program will increase
the delivery of training and equipment to Pakistani customs agencies, especially the Federal Board of
Revenue. In addition, EXBS will continue to support enhanced cross-border cooperation between
Afghan and Pakistani agencies engaged in trade control regulation and enforcement. The Department of
Homeland Security provides training in support of EXBS activities in these areas.

RSO. RSO contributes to improved security and legal institutions in Pakistan through the
Antiterrorism Assistance Program. The program is designed to build Pakistani law enforcement capacity
to detect, deter, and respond to terrorist threats. The ATA program provides a full range of tactical
and investigative courses and support to Pakistani law enforcement officials from all the country’s
provinces and the Frontier Constabulary. The program’s strategic priorities in Pakistan are to build
border security capacity through training in fraudulent document recognition and border control
management, and to expand cooperation between police and prosecutors.

During the reporting period, the program delivered eight courses on protecting government officials,
preventing terrorist attacks against bus and rail systems, managing critical incidents, conducting forensic
examinations of terrorist crime scenes, and improving instructional skills. One hundred and sixty-six
Pakistani officers participated in these courses.

RSO reported that obtaining visas for instructors in a timely manner continues to pose difficulties. Six
ATA courses were postponed during the quarter because instructors were unable to obtain visas by the
scheduled date of instruction. Visa restrictions have also set back an assessment and evaluation of the
Pakistan ATA program, with several assessment team members unable to take part in the June 2012
assessment trip because of visa delays. In addition, RSO has not distributed equipment grants since
March 2011 because of a lack of Pakistani Government assistance in approving and importing the grant
equipment. In one instance, equipment already en route to Pakistan was turned back because of a lack
of Government of Pakistan assistance in granting landing approvals for the equipment. Despite the
above challenges, ATA program trainings continue to draw large numbers of working level Pakistani law
enforcement officers, and have built significant capacity in counterterrorism skills like explosive
ordinance disposal.

USAID. USAID had 13 stabilization programs and 2 monitoring activities under way during the quarter
(Table 5). These programs provide cash transfers for housing damage, vocational training, and
improvements in roads and electricity generation. USAID’s newest stabilization program, the Conflict
Victims Support Project, will provide physical, social, and economic support to civilian victims of conflict.


                                                                                                          23
          Table 5. USAID Stabilization Programs as of June 30, 2012 (Unaudited)

                                                   Start   End       Implementing         Funding
      Name                Description
                                                   Date    Date        Partner              ($)

Benazir Income
                   Provides cash assistance                        BISP, Government of
Support Program                                    6/09    6/10                           160,000,000
                   to needy families                               Pakistan
(BISP)*

                   Establishes child
Child Protection   protection centers and                          U.N. Children’s Fund
                                                   9/10    9/12                             3,538,000
Program            provides support for                            (UNICEF)
                   psychological counseling

                                                                   National Database
Citizens’ Damage   Provides cash assistance                        and Registration
Compensation       to flood-affected               6/11    6/12    Authority,             190,000,000
Fund*              households                                      Government of
                                                                   Pakistan

                   Provides medical, psycho-
                   social, and livelihoods
Conflict Victims   support to Pakistanis
                                                   4/12    4/15            ***             20,245,806
Support Project    directly affected by
                   violence in FATA and
                   Khyber Pakhtunkhwa

                   Provides health
                   equipment and mobile
FATA Child
                   health units, reconstructs      9/06    12/12           ***             26,150,000
Health Project
                   health facilities, and trains
                   health-care providers

                   Improves roads; water
FATA               infrastructure; and
Infrastructure     electricity generation,         12/09   12/14           ***            291,986,537
Program            distribution, and
                   transmission

                   Increases the Secretariat’s
FATA Secretariat   capacity in participatory
Institutional      planning, management,
                                                   8/11    9/16            ***             10,698,085
Strengthening      and oversight of
Project            stabilization and
                   development activities



                                                                                                  24
                                                 Start   End       Implementing           Funding
      Name                Description
                                                 Date    Date        Partner                ($)

                    Provides grants for
Khyber              restoration of damaged
Pakhtunkhwa,        infrastructure and
FATA, and           disrupted services,
                                                 7/10    12/15   World Bank                25,000,000
Balochistan         improvement of
Multi-Donor Trust   government service
     †
Fund                delivery, and maintenance
                    of community livelihoods

                                                                 Provincial
                                                                 Reconstruction,
Khyber              Supports the
                                                                 Rehabilitation and
Pakhtunkhwa         reconstruction and
                                                 3/10    12/14   Settlement Authority     105,383,047
Reconstruction      recovery of conflict-
                                                                 (PaRRSA),
Program             affected districts
                                                                 Government of
                                                                 Khyber Pakhtunkhwa

Malakand and        Provides housing damage                      PaRRSA,
FATA Housing        assistance through a cash    6/10    9/12    Government of             65,000,000
Support Program*    transfer                                     Khyber Pakhtunkhwa

                    Supports monitoring and
Monitoring and
                    verification of USAID
Evaluation – FATA                                12/09   12/14            ***               5,786,536
                    investments in road and
and Malakand
                    electricity infrastructure

                    Supports monitoring and
Monitoring and
                    verification of USAID
Evaluation –                                     4/10    12/14            ***               5,760,000
                    investments in small-scale
Malakand
                    infrastructure

                    Supports conditions for
Pakistan            stability and development
                                                                 USAID Office of
Transition          in conflict-prone and        11/07   12/15                            207,076,547
                                                                 Transition Initiatives
Initiative          other priority areas of
                    Pakistan

                    Increases capacity for
                    management and
PaRRSA Capacity
                    oversight of stabilization   2/10    1/14             ***               1,527,398
Building Project
                    and development
                    activities



                                                                                                  25
                                                    Start      End         Implementing           Funding
       Name                     Description
                                                    Date       Date          Partner                ($)

Radio
Transmitters in
                          Provides radio
FATA and Khyber                                      6/10      12/12             ***                8,656,471
                          transmitters
Pakhtunkhwa
Project

Source: USAID/Pakistan.

Note: A triple asterisk (***) indicates that the name of a USAID implementing partner has been withheld for
security reasons.

* USAID has fully disbursed assistance dollars to BISP, the Citizens’ Damage Compensation Fund, and the
    Malakand and FATA Housing Support Program, but continues to monitor rupee disbursements to beneficiaries.
†
    USAID has also fully disbursed assistance dollars to the Khyber Pakhtunkhwa, FATA, and Balochistan Multi-
    Donor Trust Fund but continues to monitor project implementation activities.


As of June 30, 2012, USAID reported that 469 kilometers of road had been constructed or repaired
with U.S. Government assistance. USAID also reported these examples of progress and success in its
stabilization activities:

     USAID’s Pakistan Transition Initiative supported the FATA Secretariat in launching its 2,000th
     project in May 2012. That project was a workshop for journalists on water contamination held at
     Hazara University in Mansehra, Khyber Pakhtunkhwa. This is just the latest of more than 500
     projects launched in the water and sanitation sector since 2007. More than 25 percent of the
     projects implemented under the initiative, totaling more than $23 million, have been devoted to
     meeting the water and sanitation needs of communities across FATA and Khyber Pakhtunkhwa.
     The initiative has provided funding for the installation or rehabilitation of more than 1,300 drinking-
     water supply systems or water points and constructed or rehabilitated 75 kilometers of drainage
     and sanitation systems. USAID estimates that the initiative has provided more than 1.7 million
     residents in FATA with clean drinking water in the last 4½ years. According to the most recent
     census data, that is more than half the population of the tribal areas.

     USAID’s Khyber Pakhtunkhwa Reconstruction Program continued to support reconstruction and
     recovery in districts affected by conflict and flooding. During the quarter, construction of 4 basic
     health units began, and 9 schools were completed, bringing the total number of schools completed
     to 14. Rehabilitation of the Amandara and Munda Headworks and the Khwazakhela Bridge was 70
     percent, 30 percent, and 5 percent complete, respectively.

     USAID’s FATA Infrastructure Program completed 15 kilometers of roads this quarter—
     10 kilometers of the Wana-Makeen Road and 5 kilometers of the Bannu-Miran Shah Road. Survey

                                                                                                           26
work was undertaken on 37 kilometers of the Wana-Makeen Road and 15 kilometers of the Ghulam
Khan-Miran Shah Road. Rehabilitation work on the Barang Road, including the construction of
retaining walls, began in mid-June 2012.

USAID’s FATA Secretariat Institutional Strengthening Project made several information technology
(IT) improvements during the quarter. In April, the project established a public feedback portal for
the FATA Development Authority’s Web site. In May, the project completed the installation of a
file tracking system at the Office of the Governor and provided the FATA Development Authority
with information systems to manage human resources and track attendance. Finally, in mid-June, the
project delivered IT networking capability to the FATA Secretariat.

The FATA Secretariat Institutional Strengthening Project provided financial support for six staff
members attached to the Frontier Crimes Regulation Tribunal, an appellate court in which citizens
can appeal decisions made by political agents. These staff positions, which have been financed by the
project since May, will be funded by the Government of Pakistan after July. In May, the FATA
Secretariat approved the Local Government Framework and Financial Plan that the project
developed. The project organized a conference on FATA political reforms in June. Project staff
members started work with the FATA Secretariat to produce documentaries showcasing
development activities in each of the seven agencies of the FATA.

The FATA Child Health Project, which was launched in cooperation with the FATA Health
Directorate in December 2006, will end in December 2012. The project has worked to increase
the use of key health services and the adoption of behaviors that support the health and
development of children. During the quarter, the project reached:
       67,536 children and 6,778 mothers through 604 Health Immunization and Nutrition Days.
       14,185 people, more than half of whom were female, through 152 mobile health unit visits.
       20,239 women and 21,959 men through 3,751 gender-focused sessions to boost community
       health awareness.
       204 female health workers and 45 health-care providers through training on integrated
       management of neonatal and childhood illnesses.
       50 health-care providers through training on essential maternal and newborn care.

The Child Protection Program completed its sustainability strategy and continued to deliver
services. During the reporting period, the program directly assisted 8,649 children (3,711 girls,
4,938 boys) and 21 women through 30 child protection centers. The program also identified
573 vulnerable boys and 480 vulnerable girls—orphans, street children, and children with health
issues—and referred them to service providers for assistance. The program also provided
vocational training to 199 girls and 150 boys. The program also encourages the registration of
newborns and previously unregistered children and was able to register 89 births in the Buner
District of Khyber Pakhtunkhwa.




                                                                                                  27
    The Malakand and FATA Housing Support Program compensates beneficiaries whose houses were
    damaged during the militancy and ensuing military operations that concluded in 2009.
    Approximately 50 percent of eligible beneficiaries in FATA have received compensation, and the
    program has disbursed $19 million to approximately 6,000 beneficiaries in FATA’s Bajaur Agency
    alone. In Malakand, meanwhile, by May 2012 the program had provided compensation to, 9,030 out
    of 10,364 eligible beneficiaries (87 percent). Program disbursements are expected to conclude in
    September 2012.

    USAID signed a cooperative agreement for the Conflict Victim’s Support Project on April 16, 2012.
    The program is intended to provide assistance to approximately 4,500 families affected by conflict-
    related violence in FATA and Khyber Pakhtunkhwa. The implementer hired key team members and
    began the process of establishing a main office in Peshawar and four field offices. The program is
    expected to be fully operational next quarter.

USAID reported three challenges affecting the implementation of its stabilization programs:

    In early April 2012, a second-tier subcontractor for the Radio Transmitters in FATA and Khyber
    Pakhtunkhwa Project filed a lawsuit with the civil court of Peshawar against the prime contractor,
    USAID, a Pakistani Government agency, and others. As a result, the court issued a stay order, and
    the project site is now sealed. The mission is seeking a quick resolution to the lawsuit, without
    which the mission may be forced to cancel the project. This, in turn, may hamper efforts to counter
    extremist messages in FATA and Khyber Pakhtunkhwa.

    The lack of women’s participation in development programs continued to be a challenge.
    USAID/Pakistan commissioned a 10-week gender analysis of conditions in FATA and Khyber
    Pakhtunkhwa and of how well programs in these areas incorporate gender considerations. The
    analysis was completed at the end of May, and the mission received the draft report in June. The
    mission intends to align its stabilization portfolio with new Agency gender policy by implementing
    the report’s recommendations where feasible.

    Poor security conditions delayed the progress of some stabilization activities. The pace of
    construction on the Bannu-Ghulam Khan Road between Mir Ali and Miran Shah was slowed during
    the quarter because of the difficult security situation there. Meanwhile, the Malakand and FATA
    Housing Support Program experienced delays in disbursing funds to beneficiaries in the Mohmand
    Agency of FATA primarily due to security issues. USAID worked with PaRRSA and FATA’s Disaster
    Management Authority to expedite the disbursement process in this area.

USIP. USIP supports stabilization in Pakistan by promoting religious tolerance and peaceful interfaith
dialogue while countering extremist messages. USIP is working to accomplish associated objectives
through a 2 ½-year program with three components: (1) a grant competition to build the capacity of
civil society to counter extremism and promote peace and religious tolerance, (2) sponsorship of



                                                                                                    28
projects and activities to counter extremist voices through the media, and (3) policy research and
analysis on religious intolerance and extremism.

In early June, one of USIP’s grant recipients began airing a regular weekday radio program designed to
counter extremist propaganda by providing alternative information and cultural programming. Another
USIP media project implementer conducted stakeholder workshops and developed listener clubs in
Khyber Pakhtunkhwa and FATA before broadcasting radio programs designed to help empower
marginalized women and foster dialogue among youth at risk of being absorbed into the insurgency and
conflict. The programs feature news updates, one-on-one interviews, panel discussions, songs, poetry,
and a serial drama. They are. During the quarter, another USIP grant recipient began training young
facilitators to increase youth involvement in conflict prevention in Balochistan. Another USIP-sponsored
effort to train local police in peacebuilding and conflict management kicked off in northern Punjab.

Meanwhile, USIP’s media project began the process of hiring a local partner to analyze the content of
Pakistan’s non-English mainstream media. The partner is to determine the extent, nature, and relevance
to local audiences of extremist media content.


Education

Pakistan’s education system faces serious challenges. According to the U.N. Educational, Scientific and
Cultural Organization’s 2011 Education for All Global Monitoring Report, Pakistan ranks 119 out of 127
countries on the Education for All Development Index. Pakistan’s school system is beset by chronic
underfinancing, poor quality, and corruption, resulting in some of the worst and most unequal results on
education indicators in South Asia. At present, only 56 percent of school-age children are enrolled in
primary school. Children who do attend school encounter poorly equipped classrooms and teachers
who are ill prepared for the job. Only 49 percent of children complete Grade 5; of those, less than half
can read a simple sentence. In higher education, Pakistan remains far behind most of its neighbors in
terms of quality, access, and capacity. Institutions of higher learning in Pakistan lack productivity-
enhancing technologies, and university graduates are not always prepared to lead the country’s growth.
In 2011, only 7.8 percent of 17- to 23-year-olds in Pakistan had access to higher education. This is a
significantly smaller proportion than in Nepal (10 percent) and similar to rates in sub-Saharan Africa.

The United States aims to improve access to high-quality education through its assistance to provincial
governments and universities. Assistance includes repairing and rebuilding schools and colleges,
providing teaching and learning materials, renovating and building teacher education facilities, improving
teacher preparation, strengthening the reading skills of primary-grade students, improving provincial and
district management and policies, developing university scholarship fund-raising programs, supporting
faculty exchanges in applied research in key disciplines, and fostering effective oversight of education by
civil society. The U.S. Embassy’s PAS and USAID support programs for educational improvement.

PAS. PAS focuses on maintaining exchange programs and expanding in-country English instruction and
alumni programs. PAS exchange programs are largely implemented through U.S.-based, nonprofit

                                                                                                        29
institutions, but related outreach and recruitment activities are conducted in association with Pakistani
Government entities, media, educational institutions, and NGOs. The United States Educational
Foundation in Pakistan (i.e., the Fulbright Commission), in particular, is heavily engaged in the
recruitment and selection of participants for academic and professional programs.

From April 1 to June 30, 2012, PAS engaged in an intense interview and selection process for academic
programs scheduled to begin in the fall. More than 100 students were selected for the semester-long
undergraduate non-degree program at schools across the United States. These students are to depart
for the United States in August. PAS also began scheduling interviews in Karachi and Islamabad for
approximately 200 master’s degree and Ph.D. candidates hoping to attend U.S. institutions.

PAS worked to establish an office and professional staff for a nationwide, Pakistani-led alumni
association. PAS anticipates that the staff and 5-year funding for the initiative will be in place by August
2012.

PAS also continued to support the development of university partnership programs. PAS awarded the
first $1 million university partnership grant to the University of Texas at Austin for a partnership with
Fatimah Jinnah University in Rawalpindi. U.S. institutions are currently competing for four other
opportunities to partner with selected Pakistani universities to create faculty development programs,
staff and student exchanges, online classes and video conferences, joint research projects, and other
activities. PAS expects to award the four additional grants by September 2012.

Plans for an outside evaluation of PAS’s Global Undergraduate Exchange Program, which provides
fellowships for one semester of undergraduate study in the United States to emerging student leaders
from underrepresented sectors in Pakistan, continued to be developed during the reporting period.
The evaluation is scheduled to begin in the fall of 2012.

PAS noted one ongoing challenge during the reporting period. According to PAS, domestic security
agencies’ continued to harass Pakistanis who have participated in PAS exchanges, Pakistani organizations
that implement PAS programs, and attendees at PAS-sponsored events. PAS works to highlight the
open nature of its programming but reports that such continuing harassment will harm its programs in
the long run.

USAID. During the reporting period, USAID had eight education programs under way and two
transfers of funds to other agencies (Table 6). These programs focus on improvement in basic and
higher education by providing training for teachers, scholarships for students, and support for
reconstruction and renovation of schools.




                                                                                                         30
              Table 6. USAID Education Programs as of June 30, 2012 (Unaudited)

                                                   Start   End       Implementing        Funding
      Name                  Description
                                                   Date    Date        Partner             ($)

                      Provides interactive
                      teaching and learning for
Children's            children through a                           Rafi Peer Theatre
                                                   5/10    9/12                           10,000,000
Television Project*   television program and                       Workshop
                      associated community-
                      based campaigns

Earthquake-
Damaged Schools       Reconstructs earthquake-                     CDM Constructors
                                                   10/06   4/13                          147,454,624
Reconstruction        damaged schools                              Inc. (CDM)
Program

                      Trains primary and
Education Quality     middle school teachers                       American Institutes
                                                   10/07   10/12                          95,314,430
and Access Project    and renovates conflict-                      for Research
                      damaged schools

                      Provides merit and
                      needs-based scholarships
                      for students to study at
Higher Education
                      Pakistani higher education                   Higher Education
Commission                                         3/10    2012                           93,000,000
                      institutions; initially                      Commission
Support
                      provided budget support
                      to the Higher Education
                      Commission

Merit and Needs-      Provides bachelor’s and
                                                                   Higher Education
Based Scholarship     master’s degree              6/04    3/16                           13,223,605
                                                                   Commission
Program               scholarships

                      Supports early grade
Sindh Basic           reading program,
                                                                   Sindh Department of
Education             provides technical           9/11    9/16                           91,700,000
                                                                   Education
Program               assistance, and supports
                      reconstruction of schools

Teacher Education     Provides preservice                          Educational
                                                   5/11    9/13                           37,000,000
Project               education for teachers                       Development Center




                                                                                                31
                                                      Start     End          Implementing            Funding
      Name                      Description
                                                      Date      Date           Partner                 ($)

U.S.-Pakistan             Provides opportunities
Science and               for cooperation between
                                                              Renewed     National Academy of
Technology                Pakistan and the United     9/05                                            12,502,034
                                                              annually    Sciences
Cooperative               States in science and
Program                   technology

                          Supports construction of
Women's Hostel            a 360-bed women’s                               Forman Christian
                                                      7/11       8/14                                  7,300,000
Project                   dormitory at Forman                             College
                          Christian College

                          Provides scholarships to                        PAS and United
Transfer to
                          Pakistani graduate                  Renewed     States Educational
PAS – Fulbright                                       9/04                                           151,500,000
                          students to study at U.S.           annually    Foundation in
Scholar Program
                          universities                                    Pakistan

Source: USAID/Pakistan.
*   This project was terminated by mutual agreement in May. Project closeout activities are to be completed by
    September 30, 2012.


As of June 30, 2012, USAID reported that U.S. Government-supported education programs had
strengthened the skills of 4,741 teachers, educators, teaching assistants, and tertiary faculty. USAID also
reported the following examples of accomplishments in its portfolio of education projects:

    The Government of Sindh released funds to set up a Project Management and Implementation Unit
    that will oversee the $155 million Sindh Basic Education Program. The Sindh Basic Education
    Program awarded two agreements: a $30 million cooperative agreement with the Teacher Resource
    Centre to implement the Sindh Reading Program, and a $15 million contract to Halcrow (Pvt.)
    Limited, an architecture and engineering firm, to design and monitor the construction and
    consolidation of 200 schools.

    The Teacher Education Project increased emphasis on capacity development and training by working
    in tandem with the Higher Education Commission, provincial education departments, and partner
    colleges and universities to expand and deliver programs culminating in a 2-year associate’s degree in
    education and a 4-year bachelor of education honors degree. The project helped five universities
    develop strategic plans through workshops attended by 61 participants. It also conducted 12
    planning workshops attended by 111 representatives from 24 teacher training colleges to help the
    institutions develop improvement plans.

    USAID is also providing financing and technical assistance for the construction of facilities for the
    education of faculty at participating universities. USAID funds the design of the buildings in line with
                                                                                                             32
    specifications identified by participating universities in consultation with the Teacher Education
    Project. During the reporting period, universities approved designs for the construction of six
    buildings. USAID will now work with the architects and Pakistani construction companies to
    complete the facilities.

    USAID’s performance management contractor, Management Systems International (MSI), conducted
    an independent evaluation of the Merit and Needs-Based Scholarship Program. MSI concluded that
    the program increased the access of students from remote and rural areas to education and that
    scholarship recipients graduated on time. MSI found that the program was unique among donor
    scholarship programs in its coverage of tuition and room and board, and determined that, compared
    with a control group, the program’s business graduates had lower unemployment rates and higher
    salaries. MSI also found that the USAID scholarship and financial aid model has spread to
    universities across Pakistan. Since 2004, 11 universities have established financial aid offices and
    awarded 1,807 scholarships.

    The U.S.-Pakistan Science and Technology Cooperative Program finished its project to build
    molecular biology capacity for preventing tick-transmitted diseases in Pakistan at Sindh Agricultural
    University. Under the program, the Tick Laboratory received new equipment, and researchers
    piloted an undergraduate student exchange between Sindh Agricultural University and the University
    of Rhode Island using videoconferencing to collaborate on disease perception, survey development,
    and data analysis.

    The Children’s Television Project completed the production and airing of 26 episodes of Sim Sim
    Hamara (Pakistan’s version of ―Sesame Street‖), and dubbed the program in one regional language.
    The project was terminated by mutual agreement with the Rafi Peer Theater Workshop in May
    2012 following OIG findings on procurement violations. Project closeout has begun and is to be
    completed by the end of September 2012.

USAID also reported challenges to the implementation of its education projects. Several partners have
found it challenging to implement activities in line with their work plans given the country’s security
situation. Project activities were cancelled or postponed during the reporting period, especially in
Balochistan and Gilgit-Baltistan. These delays increased implementers’ level of effort and necessitated
constant rescheduling of activities with partner institutions. As a result, several activities, including
scholarship award ceremonies, formative evaluation surveys, and training workshops, could not be
carried out on schedule. Despite the uncertain security environment, projects continued to work
closely with all stakeholders to complete activities in a timely manner in all regions.


Health

The quality of basic health services is uneven in Pakistan, with the rural population particularly
underserved. Improving the quality of care is complicated by the country’s growing population and by
the ongoing devolution of health services to the provinces. Pakistan’s high fertility rate is expected to

                                                                                                      33
more than double the population by 2050, further straining the health system. The provinces, which do
not yet have the financial and human resources to assume added health-care responsibilities, are
negotiating with the federal government for adequate funding, skilled staff, and management and
accountability systems at the provincial level. Pakistan is one of three countries still struggling to
eradicate polio; of the three, Pakistan is the only one with an increasing incidence of the disease.

The U.S. Government supports the Government of Pakistan in developing the capacity to deliver high-
quality, cost-effective health interventions with the assistance of NGOs and contractors. Examples
include efforts to reduce infant mortality, prevent maternal deaths, and improve provincial health
systems.

USAID. USAID had ten programs and one transfer of funds to another agency to support health
services in Pakistan during the reporting period (Table 7). These programs focus on renovation and
reconstruction of facilities, family planning, and polio eradication. During the reporting period, USAID
designed a new program to consolidate efforts and provide comprehensive technical assistance
nationally while focusing on Sindh Province. Health supplies and their distribution will be consolidated
under the new program. Meanwhile, USAID-funded efforts in support of the national tuberculosis
survey and a national nutrition assessment recently concluded.

              Table 7. USAID Health Programs as of June 30, 2012 (Unaudited)

                                                   Start   End         Implementing          Funding
      Name                  Description
                                                   Date    Date          Partner               ($)

                      Supports a survey to
Demographic and                                                      Macro International
                      collect data on national     12/11   12/15                               3,700,000
Health Survey                                                        Inc.
                      health indicators

                      Assists with the
                      devolution of nearly all
Health Care
                      public health
Management                                         1/11     1/14     John Snow Inc.            6,000,000
                      responsibilities from the
Project
                      federal to provincial
                      ministries

                      Develops and strengthens
Health Services
                      institutional capacity in                      Health Services
Academy Support                                    7/08    12/12                               7,747,517
                      public health training and                     Academy
Project
                      research




                                                                                                     34
                                                        Start    End         Implementing         Funding
      Name                      Description
                                                        Date     Date          Partner              ($)

                          Provides logistical
                          support for the
Health Supplies
                          distribution of                       Renewed
Distribution                                            9/08               John Snow Inc.          13,242,088
                          contraceptives to                     annually
Project
                          provincial health
                          ministries

                          Procures contraceptives
Health Supplies
                          and vaccines for national     4/10      4/15     Various                105,420,953
Project
                          distribution

Jacobabad Civil
                          Renovates this hospital       10/10    10/13     CDM                     11,049,000
Hospital Project

Jinnah Post-              Reconstructs
Graduate Medical          the obstetrics and            5/10      4/13     CDM                      5,629,069
Center Project            gynecology/fistula ward

                          Supports the National
                          Nutrition Survey, which
Nutrition                 will identify links between
Assessment                nutrition and family          4/11      4/12     Aga Khan University       588,974
Project                   planning and determine
                          the level of vaccination
                          coverage in Pakistan

                                                                           UNICEF and the
Polio Vaccination         Conducts annual polio                 Renewed
                                                        1/03               World Health            22,370,271
Program                   eradication campaigns                 annually
                                                                           Organization (WHO)

                                                                           Koninklijk
Tuberculosis              Conducts a survey of
                                                        6/10      3/12     Nederlandsche            4,570,000
Survey Program            tuberculosis prevalence
                                                                           Centrale Vereeniging

Transfer to the
Centers for
Disease Control                                                            CDC, U.S.
and Prevention            Provides training to                             Department of
                                                        8/05      3/13                              5,683,676
(CDC) – Field             epidemiologists                                  Health and Human
Epidemiology and                                                           Services
Laboratory
Training Program

Source: USAID/Pakistan.

                                                                                                          35
As of June 30, 2012, USAID reported that 14 polio immunization campaigns had been completed.
USAID also reported the following examples of progress and success in its health programs:

    With technical and operational assistance from USAID implementing partners, the Government of
    Pakistan conducted a national polio campaign in April 2012 in 100 districts and towns, targeting
    32 million children.

    Technical experts from the Health Supplies Distribution Project drafted the curriculum for a supply
    chain management course at the Health Services Academy and worked with the academy to
    integrate the three-credit course into its masters of science in public health and health policy
    program.

    Also under the Health Supplies Distribution Project, three shipments of medical supplies for the
    National Blood Transfusion Program, National Hepatitis Program, National HIV Program, and
    Immunization Program arrived in Pakistan during the quarter. The supplies, valued at approximately
    $8 million, are now being distributed according to plans developed with Government of Pakistan
    partners.

    Seventy master trainers nominated by provincial departments of health and population received
    hands-on training on the USAID-supported logistics management information system. The
    computerized supply chain management system tracks health commodities throughout Pakistan and
    allows district and provincial authorities to place orders and track stock levels of medical supplies.

    USAID’s Health Care Management Project inaugurated the Health Sector Reform Unit of the Sindh
    Health Department on May 18, 2012. Unit staff members are now working to enact health reforms
    in Sindh. The project also completed a health communication strategy for Sindh and is providing
    technical assistance in human resources planning, community midwifery, health service integration,
    and the management of Jacobabad Civil Hospital.

    The Nutrition Assessment Project, which concluded in April 2012, supported two research modules
    in Pakistan’s 2011 National Nutrition Survey. The modules, which were designed to identify links
    between nutrition and family planning and determine vaccination coverage, provided information
    that can be used to improve nutrition-related health programming and vaccination efforts.

    The USAID-supported National Tuberculosis Prevalence Survey concluded in March 2012 and was
    in the data entry and analysis phase during the reporting period. The final report for this program
    was due for publication at the end of July 2012.

USAID also reported health program implementation challenges associated with changes in the
administration and management of government health systems in Pakistan. With the devolution of the
Ministry of Health, adequate financing and clear roles and responsibilities at the provincial level have yet
to be resolved. The lack of organization after devolution remains problematic for the Pakistani health-

                                                                                                         36
care system.


Crosscutting Priorities: Good Governance, Gender Equity, and Greater
Transparency

The crosscutting priorities of U.S. Government assistance—improved governance, gender equity, and
greater transparency—are integrated, as appropriate, into programs in the sectors discussed in the
previous sections of this report. The U.S. Government also supports programs focused exclusively on
these areas. DRL, the Embassy’s PAS, and USAID support programs in this category of assistance.

DRL. DRL supports eight projects that strengthen human rights, support democratic institutions,
promote fair labor standards, and encourage interfaith dialogue. In addition to the projects listed in
Table 8, DRL is in the final stages of awarding a grant that enhances the role of the legal profession and
the justice sector in protecting and strengthening human rights and the rule of law in the context of
national security.

  Table 8. DRL Human Rights and Democracy Programs as of June 30, 2012 (Unaudited)

                                                    Start    End         Implementing          Funding
      Name                  Description
                                                    Date     Date          Partner               ($)

                      Supports human rights
Balochistan           initiatives within
                                                    10/11    9/12     Consulate Karachi           500,000
Initiative            Balochistan through
                      small grants

                      Advocates for the rights
Empowering                                                            International Catholic
                      of home-based workers;
Home-Based                                          9/11     3/13     Migration                   484,186
                      strengthens cooperatives
Women Workers                                                         Commission
                      and builds their capacities

                      Increases the capacity,
Ensuring the
                      sustainability, and
Protection of
                      geographic reach of local
Human Rights                                        9/11     3/13     Freedom House               792,080
                      organizations that protect
Defenders and
                      human rights and
Journalists
                      journalists

                      Supports development of
Ethnic and            enhanced madrassa
                                                                      International Center
Religious             teaching materials and a
                                                    9/11     3/13     for Religion and            410,000*
Minorities School     university madrassa
                                                                      Diplomacy
Curriculum            teacher training
                      certificate course


                                                                                                       37
                                                    Start   End        Implementing          Funding
      Name                  Description
                                                    Date    Date         Partner               ($)

                      Increases skills of
                      journalists and civil
Promoting Media
                      society groups; works
Transparency on
                      with media outlets to         9/11    9/13     Internews                  750,000
National Security
                      ensure higher-quality
Issues
                      reporting reaches
                      broader audiences

                      Promotes peaceful
                      coexistence, mutual
Promoting
                      understanding, and                             Church World
Peaceful Co-                                        1/11    12/14                               648,543
                      respect among religious                        Service
existence
                      minorities and the Muslim
                      majority in Pakistan

                      Increases the capacity of
Strengthening
                      elected women
Women
                      parliamentarians by                            Search for Common
Parliamentarians                                    9/11    9/13                                829,800
                      bolstering engagement in                       Ground
for Effective
                      decision making at the
Government
                      provincial levels

                      Builds trade union and
                      worker organizations’
Strengthening         organizational and
Worker and Trade      managerial capacity in        4/09    9/13     Solidarity Center         1,095,049
Union Rights          collective bargaining, dues
                      collection, recruitment,
                      and other areas

Source: DRL.
*   This program operates in both Pakistan and Saudi Arabia. The funding figure provided is for the
    Pakistan component of the program.


DRL provided the following examples of progress and success in its programs:

    As part of Promoting Media Transparency on National Security Issues, Internews conducted six
    training sessions on responsible reporting for 88 journalists in Khyber Pakhtunkhwa, FATA, South
    Punjab and Balochistan despite a challenging security environment. Participating journalists were
    also take part in a 2-day safety and security training session, in which they would learn to develop
    good security habits and discuss ways to ensure personal safety in threatening environments for
    media professionals.

                                                                                                      38
    Under DRL’s Strengthening Worker and Trade Union Rights effort, the Solidary Center targeted
    outreach to 29 local unions in two of the Pakistan Workers’ Federation’s eight regions. The
    outreach was designed to encourage unions to adopt approaches to dues collection that would
    support financial self-sustainability and provide adequate funding for regional and national trade
    union entities. Several of the targeted unions have already increased their membership dues, while
    the executive bodies of other local unions have committed to reforms, including increasing union
    dues, collecting dues based on a percentage of wages rather than a flat sum, and adequately funding
    regional and national trade union bodies. With increased dues, many of the unions have organized
    legal defense funds. These funds have increased union bargaining power, leading to more favorable
    contracts for program beneficiaries.

    In an example of interfaith dialogue supported with DRL funds, Christian and Muslim religious
    leaders from different sects gathered in a madrassa on Eid-ul-Adha, a Muslim festival of sacrifice.
    Religious leaders addressed the students with messages of peace and harmony. According to DRL,
    this was the first time that Christian leaders had addressed Muslim students in any madrassa and
    also the first time that Muslim leaders from different sects had interacted with students of different
    schools of religious thought.

DRL cited several challenges in implementing its programs: (1) ensuring that DRL programs stay relevant
as the country prepares for the next national elections, (2) finding alternate sources of power as the
country struggles through the energy crisis, (3) ensuring women’s equal participation in the full range of
DRL programs, and (4) addressing the safety of staff and project participants when implementing project
activities in conflict areas.

PAS. As part of the U.S. Embassy’s strategic communication efforts, PAS is expanding the in-country
English Language Access Program. As of June 2012, this after-school program had provided English
instruction to 5,000 Pakistani students between the ages of 14 and 18. Using Pakistani interlocutors, the
program is expanding into regions of strategic interest, including Quetta and other parts of Balochistan,
as well as Khyber Pakhtunkhwa.

USAID. USAID has eight projects designed to improve governance, gender equity, and transparency
(Table 9). In addition, USAID transfers funds to PAS to support exchanges, and funds a contract to
enhance the Agency’s project monitoring and evaluation in education. USAID’s projects in this category
of assistance include a hotline for the public to register complaints, support to organizations that oppose
domestic violence and gender discrimination, and broader civil society support. In addition to its
ongoing programs, USAID is planning a program to monitor the upcoming national elections. During
the reporting period, USAID’s contractor completed construction of the Pakistan Institute of
Parliamentary Services Building.




                                                                                                        39
   Table 9. USAID Good Governance, Gender Equity, and Transparency Programs as of
                            June 30, 2012 (Unaudited)

                                                   Start   End       Implementing         Funding
      Name                 Description
                                                   Date    Date        Partner              ($)

Anti-Fraud           Allows citizens to report
                                                                   Transparency
Hotline Project /    waste, fraud, and abuse of
                                                   1/09    9/15    International–           2,650,000
Anti-Corruption      U.S. Government funds
                                                                   Pakistan
Project              through a free hotline

                                                                   Rural Support
                     Conducts preaward                             Programs Network,
Assessment and       assessments and develops                      Lahore University of
Strengthening        the capacity of Pakistani     10/10   10/15   Management              19,400,000
Program              organizations to manage                       Sciences, and
                     assistance funds                              Associates in
                                                                   Development

                     Makes small grants to civil
                                                                   Trust for Democratic
Citizens' Voice      society projects that
                                                   5/11    9/15    Education and           15,500,000
Project              support U.S. foreign
                                                                   Accountability
                     assistance objectives

Construction of
Pakistan Institute   Funds building
                                                   3/10    6/12    Habib Rafiq              9,929,214
of Parliamentary     construction
Services Building

                     Makes small grants to
Gender Equity        organizations opposing
                                                   8/10    8/15    Aurat Foundation        19,868,429
Program              domestic violence and
                     gender discrimination

Independent          Provides mission-wide
Monitoring and       support for monitoring,
                                                   6/11    6/16    MSI                      7,000,000
Evaluation           evaluation, and the
Contract             PakInfo system

                                                                   Provincial
Municipal Services   Improves delivery of basic
                                                                   governments’
Program, Sindh       municipal services,
                                                   7/10    7/15    planning and           119,924,194
and Khyber           including water in
                                                                   development
Pakhtunkhwa          Jacobabad and Peshawar
                                                                   departments




                                                                                                  40
                                                        Start   End       Implementing           Funding
      Name                      Description
                                                        Date    Date        Partner                ($)

                          Improves the
Political Parties         transparency and
                                                                       National Democratic
Development               accountability of Pakistani   7/11    7/15                              7,898,790
                                                                       Institute
Project                   political parties to their
                          constituents

                          Makes small awards for
Small Grants and
                          community initiatives that                   National Rural
Ambassador's                                            8/10    8/15                             21,500,000
                          support U.S. foreign                         Support Programme
Fund Program
                          assistance objectives

                          Conducts exchange
Transfer to PAS –         programs and in-country
                                                                       DOS Bureau of
Exchanges /               English language
                                                        7/05    2015   Educational and           23,740,000
Strategic                 instruction that support
                                                                       Cultural Affairs
Communications            strategic communications
                          objectives

Source: USAID/Pakistan.


As of June 30, 2012, USAID reported that 187 local NGOS had received support through U.S.
Government assistance. USAID also provided the following examples of progress and success in its
governance and gender-equity assistance programs:

    The Citizens’ Voice Project is awarding civil society advocacy grants in three cycles. It awarded 13
    grants during its first grant cycle in municipal services, energy reform, and water rights. Seventeen
    second-cycle project grants have been submitted for USAID approval in tax policy, legislative
    governance, and education sector reform. In total, these grants will provide $3.5 million to
    recipients. Grant themes for the third grant cycle have been finalized, and solicitations will be issued
    in July 2012.

    The Gender Equity Program has been facilitating the work of the Pakistani Government’s National
    Registration and Database Authority to register women in remote rural areas. So far, 1.7 million
    women have registered to receive a computerized national identity card through the program. The
    program recently added a voter and civic education component to the registration activity so that
    newly registered women will be able to better understand and exercise their voting rights in the
    upcoming elections. Overall, the program has executed 95 grants—such as those for legal training
    for women’s rights lawyers and community advocacy campaigns across Pakistan on gender-based
    violence—valued at $4.3 million.

    Planning documents for the Municipal Services Programs for Sindh and Khyber Pakhtunkhwa were

                                                                                                         41
    granted anticipatory approval by the Government of Pakistan in May 2012, permitting provincial
    governments to begin project implementation. Also in May, a meeting was held at the Karachi
    Consulate to discuss future program planning and to brief program participants on World Bank
    water and sanitation program interventions in Sindh and possible program support to Jacobabad.

    The Municipal Services Program in Peshawar, the capital of Khyber Pakhtunkhwa, reached several
    key milestones, including the approval of its planning documents by the Government of Pakistan,
    establishment of a project management unit responsible for smooth and timely implementation of
    projects, and the awarding of an architecture and engineering services contract.

    The Pakistan Institute of Parliamentary Services Building, constructed by USAID for conducting
    parliamentary training and research, was completed and inaugurated by the U.S. Ambassador and the
    Under Secretary of State for Public Diplomacy and Public Affairs in May 2012. This state-of-the-art
    structure is powered by the largest on-grid solar power station installed on a building in Pakistan.

    To date, 79 awards totaling $10.2 million have been executed under USAID’s Small Grants and
    Ambassador’s Fund Program. Communities have praised these investments, noting that they have
    responded to some of the most urgent community priorities in agriculture, education, and water
    and sanitation.

USAID noted two principal challenges in implementing programs for improved gender equity and
governance: (1) women’s equal participation in the full range of development programs and (2) the
timing of Pakistan’s next national elections and the first civilian-to-civilian transfer of power remains
uncertain. USAID is working closely with other U.S. Government entities to ensure that appropriate
plans are in place to prepare for and monitor the upcoming national elections.


Humanitarian Assistance
The U.S. Government continues to provide humanitarian assistance in Pakistan as the country grapples
with both man-made and natural crises. Ongoing military operations and militant activity that began in
August 2008 have resulted in a sizable internal displacement in Khyber Pakhtunkhwa and FATA. With
the help of U.N. agencies and the international community, Pakistan continues to recover from flooding
in 2010 and 2011, while also strengthening crisis planning mechanisms and implementing disaster risk
reduction methods to decrease the devastation of future floods. The country also hosts some 1.7
million registered Afghan refugees, as well as approximately 1 million unregistered Afghans who reside in
Pakistan as economic migrants. The first wave of refugees arrived in 1979, making Pakistan host to one
of the largest and most protracted refugee situations in the world.

DOS’s Bureau of Population, Refugees, and Migration and USAID manage and coordinate humanitarian
assistance programs and activities in Pakistan on behalf of the U.S. Government.




                                                                                                      42
PRM. PRM’s main goals in Pakistan are to meet humanitarian assistance needs, maintain effective
protections, support durable solutions for Afghan refugees and migrants, and advance the sustainability
of PRM services through successful transitions.

The U.N. High Commissioner for Refugees (UNHCR) is PRM’s primary partner in Pakistan in providing
assistance to Afghan refugees. UNHCR provides protection and essential services to refugees and
oversees their repatriation to Afghanistan. Since 2002, 3.7 million Afghan refugees have returned to
Afghanistan through UNHCR’s voluntary repatriation centers in Pakistan. With PRM support, UNHCR
and the International Committee of the Red Cross also provide protection and assistance to people in
Pakistan who have been affected by conflict and natural disaster.

In addition, PRM is partnering with eight NGOs in Pakistan to provide Afghan refugees with primary
education, maternal and child health care, skills development, and gender-based-violence prevention and
response services (Table 10).

   Table 10. PRM Humanitarian Assistance Programs as of June 30, 2012 (Unaudited)*

                                                                        Start    End        Funding
            Name                             Description
                                                                        Date     Date         ($)

Community-Based
Comprehensive Health             Provides services to refugees and
Services and Livelihoods         host community members in and
Opportunities for Afghan         around three refugee settlements in    9/11     8/12        793,335
Refugees and Host                the Pishin and Quetta Districts of
Communities in Balochistan       Balochistan
Refugee Camps

                                 Provides training to Afghan refugees
                                 and their hosts living in Mansehra
Construction Trade Training
                                 District to help them develop skills
and Skills Development                                                  7/11     6/12        357,978
                                 to carry out dignified and
Program
                                 economically sustainable livelihood
                                 activities

                                 Provides primary education, skills
Education, Skills, and           development, and gender-based-
Protection for Afghan            violence response services to
                                                                        9/11     9/12        457,157
Refugees and Host                Afghans and host-community
Communities Program              members in semi-urban Quetta,
                                 Balochistan




                                                                                                    43
                                                                            Start   End    Funding
             Name                              Description
                                                                            Date    Date     ($)

Extension of Project Skills        Provides skills training and job
Training and Income                placement services to Afghan
                                                                            7/11    6/12   469,628
Generation for Urban Afghan        refugee men and women in
Refugees Program                   Rawalpindi and Islamabad

                                   Supports eight government health
                                   facilities in Balochistan’s Quetta
Integrated Afghan Refugee          District to provide quality maternal
                                                                            9/11    8/12   999,992
Assistance Program                 and child health care and health
                                   education to Afghan refugees and
                                   members of the host community

                                   Improves healthcare and builds
                                   health-care system capacity for
                                   refugees and host community
Mansehra Health Program            residents in and around Barari,          7/11    6/12   221,319
                                   Ichrian, and Khaki refugee villages in
                                   the Mansehra District of Khyber
                                   Pakhtunkhwa

                                   Provides primary and reproductive
                                   healthcare and health and hygiene
Primary Healthcare,                information, and prevents and
Repatriation and Gender-           responds to gender-based violence
Based-Violence Support for         for Afghan refugees and host-            5/11    4/12   1,000,000
Afghan Refugees in Khyber          community members in seven
Pakhtunkhwa                        refugee villages and one urban area
                                   in the Peshawar, Swabi, and Buner
                                   Districts of Khyber Pakhtunkhwa

                                   Provides access to health care and
Transition Support
                                   basic education for Afghan refugees
Programming for Afghan                                                      7/11    6/12   1,000,000
                                   in Balochistan and in Haripur,
Refugees in Pakistan
                                   Khyber Pakhtunkhwa

Source: PRM, U.S. Embassy Islamabad.

*   The names of PRM’s implementing partners have not been provided in this table for security
    reasons.

PRM provided the following information on recent program developments and achievements related to
its humanitarian assistance programs:



                                                                                                   44
   The Construction Trade Training and Skills Development Program provided training to 132 Afghan
   refugee men, 96 Afghan refugee women, 48 host-community men, and 24 host-community women
   in carpentry, welding, electricity, tailoring, and beading and embroidery. The program will assist
   beneficiaries in securing employment following the training. More than 60 percent of those trained
   in FY 2010 secured employment in their respective trades, with graduates securing employment in
   Pakistan and Afghanistan. A third of trainees increased their household income by 40 percent or
   more within 3 months of graduating from the program.

   The Education, Skills, and Protection for Afghan Refugees and Host Communities Program
   established partnerships with two local organizations to conduct project activities in three
   community centers. The program’s literacy and numeracy courses for out-of-school Afghan
   children have been recognized by the Afghan Ministry of Education. This recognition and the
   credentials that come with it will help students enter schools in Afghanistan upon repatriation.

   The Integrated Afghan Refugee Assistance Program continued to coordinate effectively with local
   institutions to support sustainable health-care solutions for the 107,000 refugees and host
   community residents in its operating area. Four birthing stations, which opened in FYs 2009 and
   2010 are expected to be handed over to the Peoples’ Primary Healthcare Initiative, which has
   indicated that it will hire project staff for them and maintain services 24 hours a day, 7 days a week.
   As another step towards sustainability, PRM’s implementing partner will work to prepare
   community health workers and midwives to take on more maternal, child, and reproductive health
   responsibilities in the area.

   In concert with its implementing partner for the Mansehra Health Program, PRM has agreed to
   approach the transfer of the program to local service providers in phases so as not to abruptly
   discontinue health services for beneficiaries. During the FY 2011 project period, the implementing
   partner transferred curative services from one of its three basic health units to Government of
   Pakistan facilities, but continued to provide maternal and child health services and work through its
   cadre of 142 male and 262 female health workers as well as with district health authorities to
   facilitate beneficiaries’ access to other service providers in the area.

   PRM’s implementing partner for the Primary Healthcare, Repatriation, and Gender-Based Violence
   Support Program in Khyber Pakhtunkhwa has significantly improved health standards for the
   communities it serves and trained a cadre of community health professionals, many of whom have
   repatriated and joined the Afghan Ministry of Public Health. The implementing partner is pursuing a
   phased transfer of project services starting with an emergency obstetric center in Peshawar and
   curative and preventive health services in Swabi. The implementing partner is also building the
   capacity of two local partners to manage three of the project’s seven basic health units and has
   included district health personnel in training activities.

USAID. Since October 1, 2009, USAID has provided approximately $919 million in humanitarian
assistance to Pakistan. USAID’s Offices of Food for Peace (FFP) and U.S. Foreign Disaster Assistance

                                                                                                       45
(OFDA) provide humanitarian assistance in response to complex emergencies and natural disasters in
Pakistan. Both offices manage their programs from Washington, D.C., but have assigned technical
experts to the USAID mission to coordinate activities with its technical and provincial offices. These
experts provide links with other humanitarian assistance actors in Pakistan and advise the mission on
emergency conditions and ways for USAID to respond to them. The mission was working with other
international organizations and the Pakistani Government to develop contingency plans for the 2012
monsoon season. The mission was also developing a new project with a focus on disaster risk
reduction.

FFP has contributed to the food security of internally displaced persons (IDPs) in Khyber Pakhtunkhwa
and FATA since 2009, and to those throughout Pakistan who were affected by the 2010 and 2011
floods. FFP provides in-kind and cash assistance.

The bulk of FFP assistance is channeled through the U.N. World Food Programme (WFP). WFP
provides food rations to IDPs while they are away from home and for 6 months after their return. It
provides supplementary food for malnourished children and for pregnant and lactating mothers. WFP
also provides rehabilitation and reconstruction assistance in the form of food rations for workers on
community development projects.

WFP began food distributions within 2 days of the 2010 flood and distributed food rations to 7 million
beneficiaries at the height of the flood response in October 2010. During the 2011 flood response for
Sindh and Balochistan, WFP reached more than 4 million people after the Pakistani Government
requested international assistance. During these two flood response efforts, FFP contributions
accounted for more than half of WFP’s emergency operations.

In addition to supporting WFP flood response efforts, FFP funded an NGO program to distribute food
vouchers to vulnerable families after the initial phase of the flood response. Under the program, each
family received a food voucher booklet to be redeemed for pre-selected food items.

As of June 30, 2012, USAID reported the following examples of progress and success in FFP
humanitarian assistance programs:

   FFP-supported emergency nutrition led to acute malnutrition recovery rates that met or exceeded
   Sphere standards—internationally recognized standards for the delivery of quality humanitarian
   response. Whereas Sphere standards call for recovery rates of 75 percent or more, emergency
   nutrition program results from the 2011 flood response were between 77 percent and 90 percent
   for moderately malnourished children. Pregnant and lactating women participating in the program
   demonstrated similar recovery rates.

   With FFP support, WFP has reached more than 2 million people through food-for-work activities in
   the Swat Valley and flood-affected districts in Sindh. Work projects under the program help
   communities withstand future floods, for example, through the rehabilitation of irrigation and

                                                                                                   46
   drainage canals, construction of raised platforms, rehabilitation of drainage canals, reconstruction of
   livestock sheds, and establishment of kitchen gardens.

   FFP’s NGO food voucher program ended on June 21, 2012, after reaching 17,500 families in the
   Mirpur Khas and Sanghar Districts of Sindh Province. These districts were very heavily affected by
   the 2011 flood, which left many tenant farmers without work or a means to care for their families.
   Valued at $200, the food voucher booklets that families received under the program were designed
   to cover most of their’ food needs for 3 months.

USAID’s OFDA responds to humanitarian needs in Pakistan that result from natural and man-made
disasters. OFDA launched a robust humanitarian response to the 2005 earthquake, which left
2.8 million Pakistanis homeless. In 2009, OFDA ramped up activities to address the needs of people
displaced by conflict in Khyber Pakhtunkhwa and FATA. And, in 2010, when historic floods affected
two-fifths of the country and more than 18 million people, OFDA responded by providing assistance
that spanned all humanitarian sectors. This assistance laid the foundation for OFDA’s rapid response to
monsoon flooding that occurred in Sindh and Balochistan Provinces in 2011.

Ten major OFDA programs were active in Pakistan during the reporting period. To date in FY 2012,
OFDA has committed nearly $12 million to meet the country’s humanitarian needs. This assistance
builds on the nearly $432 million in emergency relief funding provided by OFDA over the previous 10
years.

USAID provided the following examples of progress and success in OFDA humanitarian assistance
programs during the reporting period:

   OFDA continued its humanitarian response strategy of supporting conflict-affected populations—
   particularly newly displaced people in Khyber Pakhtunkhwa and FATA—as well as providing
   sustained assistance to communities affected by the 2010 and 2011 floods to enable them to recover
   from the devastation. OFDA has focused on health and water, sanitation, and hygiene assistance, as
   well as on the provision of shelter and emergency relief supplies, for newly displaced individuals, and
   prioritizes economic recovery and agriculture support for IDPs returning to home areas. In
   addition, OFDA is working with disaster-prone communities to reduce their vulnerability to disaster
   through community-based initiatives to manage disaster risk.

   To prepare for contingencies such as increased displacement, OFDA has supported a rapid-
   response fund, known as RAPID (Responding to Pakistan’s Internally Displaced), through the
   international NGO Concern Worldwide. The RAPID Fund is designed to provide speedy, targeted
   grants to partners—primarily local NGOs—with the capacity, local knowledge, and access required
   to meet the needs of IDPs, host communities, and returnees.

   OFDA is also working with Concern Worldwide to train community disaster management
   committees and schoolteachers on appropriate disaster response techniques. At the start of the

                                                                                                       47
    reporting period, Concern Worldwide had trained 4,834 people in disaster preparedness,
    mitigation, and management; assisted in the development of nearly 100 community plans for disaster
    risk reduction; and organized 6 disaster response and recovery advocacy events. These activities
    continued throughout the reporting period, as the organization distributed disaster preparedness
    materials to community members and trained newly established local emergency response teams in
    search and rescue.

    The Rural Support Programs Network (RSPN) completed the first stages of an OFDA project to
    provide economic recovery assistance to people whose livelihoods had been depleted or lost as a
    result of floods in southern Pakistan. By late May 2012, RSPN had helped form approximately 370
    community organizations that opened bank accounts and decided on projects to rehabilitate
    community infrastructure. The projects will serve as OFDA-funded temporary employment. The
    communities identified 194 work sites, district offices received 48 sets of tools to facilitate the work,
    and RSPN mobilized more than 4,440 households to participate in the cash-for-work projects.
    RSPN also worked with communities to select more than 150 beneficiaries to receive cash grants,
    with priority given to vulnerable and female-headed households.

    With OFDA support, the International Organization for Migration (IOM) is rehabilitating damaged
    shelters and providing training on building weather-resistant structures as part of a project designed
    to reach 19,500 people affected by flooding in Sindh Province. In addition, OFDA is supporting
    IOM’s role as the Shelter and Non-Food Item Cluster lead in the flood response to facilitate the
    development of common strategies and promote information sharing to reduce duplication and
    inequities in assistance.

    OFDA continues to work with the Agency for Technical Cooperation and Development to meet
    the recovery needs of 38,500 people whose homes were destroyed by severe 2011 monsoon
    flooding in southern Sindh Province. The organization is providing locally appropriate and low-cost
    shelter; kitchen, gardening, and crop inputs; and training to reduce food insecurity.


Assistance to Pakistani Institutions

To ensure greater responsiveness and increase the sustainability of civilian programs, the United States
plans to continue to implement programs through Pakistani institutions, including national and provincial
governments and NGOs, when feasible.9 The purpose of this focus is to:

    Align programs with locally identified priorities.

    Build Pakistanis’ sense of ownership of programs.

9
 The Enhanced Partnership with Pakistan Act of 2009 encourages appropriate use of Pakistani firms and NGOs to
implement the programs authorized under Title I of the act (Section 101(c)(3)).


                                                                                                          48
       Build Pakistani institutional and leadership capacity for better fiscal management.

       Promote decentralization to engage provincial and local partners and beneficiaries more actively.

       Deliver on-budget assistance10 to promote transparency, harmonization, and better budget planning
       by the Government of Pakistan.

       Reduce costs.

USAID awarded more than $1.268 billion to Pakistani institutions during FY 2010 and $439.5 million to
Pakistani institutions during FY 2011. USAID reported awarding approximately $398.8 million during
FY 2012 (Table 11). Awards made by USAID in FY 2012 fall into one of the following three categories:
direct funding for government projects, awards to nonprofit Pakistani organizations, and awards to
Pakistani for-profit entities.

     Table 11. USAID Assistance to Pakistani Institutions Since October 1, 2011 (Unaudited)

                                                                                 Number of          Value ($) of
 Implementing Partner, Project
                                                                                  Awards           Subobligations

 Direct Funding for Government Projects                                                26          351,512,731

 FATA Secretariat, Barang Road and Silay Patay Bridge in Bajaur                         1              2,000,000

 FATA Secretariat, Ghulam Khan-Bannu Road                                               1            106,310,673

 FATA Secretariat, Jandola Bridge reconstruction                                        1              4,125,425

 FATA Secretariat, Jandola-Sararogha Road, Repair of bridges                            1              1,158,820

 FATA Secretariat, Kaur-Wana Road, Repair of flood damage                               1              6,254,588

 FATA Secretariat, Kundiwam Dam and Dhana Irrigation Projects, Swat                     1             18,000,000
 *
 FATA Secretariat, Reactivation and Rehabilitation of Transformers and
                                                                                        1              3,530,000
 Tension Lines

 FATA Secretariat, Sararogha-Janjal Road                                                1             19,557,582



10
   Delivering U.S. assistance through Pakistan’s own budgetary, spending, and accounting systems as much as possible
is expected to help the Government of Pakistan meet the fiscal targets required by the International Monetary Fund
and raise Pakistanis’ awareness of where U.S. funds are going and how they harmonize with resources from the
Government of Pakistan and other donors. On-budget assistance should also help reduce disruptions in
implementation by enabling federal and provincial governments to improve budget planning and cash-flow
management.


                                                                                                                 49
                                                                           Number of    Value ($) of
Implementing Partner, Project
                                                                            Awards     Subobligations

FATA Secretariat, Sararogha-Makeen Road, Repair of bridges                      1         6,939,654

FATA Secretariat, Tank-Makeen Road, Repair of flood damage                      1         4,090,215

FATA Secretariat, Tank-Makeen Road, Ahmad Wam Tunnel                            1           279,740

FATA Secretariat, Tank-Makeen Road, Kotkai Tunnel/Bypass                        1         1,651,558

FATA Secretariat, 132 kilovolt-ampere transmission line from
                                                                                1         8,270,000
Gomal Zam Dam

Government of Khyber Pakhtunkhwa, Municipal Services Program                    1        55,000,000

PaRRSA, Capacity building                                                       1         2,600,000

PaRRSA, Construction of integrated government complex                           1         2,500,000

PaRRSA, Flood-damaged infrastructure: Amandara Headworks                        1         6,564,000

PaRRSA, Flood-damaged infrastructure: Khwazakhela Bridge                        1         4,980,000

PaRRSA, Flood-damaged infrastructure: Munda Headworks                           1         8,495,000
*
 PaRRSA, Khyber Pakhtunkhwa Reconstruction Program, Health recovery
                                                                                1         2,863,282
and supplies

PaRRSA, Malakand Reconstruction and Recovery Program, Construction of
                                                                                1         1,342,194
schools

PaRRSA, Malakand Reconstruction and Recovery Program, Health recovery
                                                                                1         2,000,000
and supplies

PaRRSA, Malakand Reconstruction and Recovery Program, Water and
                                                                                1         3,000,000
sanitation systems

Sindh Department of Education, Sindh Basic Education Program,
                                                                                1        20,000,000
Construction of schools

Sindh Department of Education, Sindh Basic Education Program, Reforms to
                                                                                1        20,000,000
upgrade and merge schools

WAPDA, Gomal Zam Multipurpose Dam Project                                       1        40,000,000

Awards to Pakistani Nonprofit Organizations                                     9       29,042,496

*
    Aga Khan Foundation, Satpara Irrigation Project                             1         1,928,595

Agribusiness Support Fund, USAID’s Agribusiness Project                         1        10,300,000

Dairy and Rural Development Foundation, Dairy Project                           1         1,500,000


                                                                                                  50
                                                                                   Number of    Value ($) of
    Implementing Partner, Project
                                                                                    Awards     Subobligations

    Health Services Academy, Health Services Academy Support Project,
                                                                                        1         2,551,164
    Developing and strengthening capacity in public health and research

    Lahore University of Management Sciences, Assessment and Strengthening
                                                                                        1         3,900,000
    Program

    National Rural Support Programme, Small Grants and Ambassador’s Fund
                                                                                        1         4,000,000
    Program

    RSPN, Emergency relief and early recovery for Pakistan flood victims                1         1,502,737

    Transparency International-Pakistan, Anti-Fraud Hotline                             1         1,360,000
    *
     Trust For Democratic Education and Accountability, Citizens’ Voice
                                                                                        1         2,000,000
    Project

    Awards to Pakistani Private Sector, For-Profit Entities                             9       18,196,366

    Associates in Development, Monitoring and evaluation for
                                                                                        1         3,446,537
    FATA Infrastructure Projects

    Associates in Development, Assessment and Strengthening Program                     1         3,777,000

    Habib Rafiq International (Pvt.) Limited, Construction of Pakistan Institute
                                                                                        1         1,226,075
    of Parliamentary Services Building
    *
        Halcrow Pakistan (Pvt.) Ltd., Sindh Basic Education Program                     1         2,989,756
    *
     Halcrow Pakistan (Pvt.) Ltd., Municipal Services Program—Khyber
                                                                                        1         1,100,000
    Pakhtunkhwa, Peshawar
    *
        Halcrow Pakistan (Pvt.) Ltd., Women's Hostel Project                            1           653,563
    *
        Interflow Communications (Pvt.), Public Communications Project                  1         4,500,000
    *
    National Development Consultants (Pvt.) Ltd., Education Quality and
                                                                                        1           352,435
    Access Project
    *
    National Engineering Services Pakistan (Pvt), Milestone verification—Gomal
                                                                                        1           151,000
    Zam Irrigation Project

    Total                                                                              44      398,751,593


Source: USAID/Pakistan.
*
         Awards made to Pakistani institutions from March 13 to June 14, 2012.




                                                                                                          51
Prior to disbursing funds, USAID’s Office of Financial Management performs preaward assessments of all
prospective partner organizations. The assessments examine organizational and management structure,
accounting and financial management systems, internal controls, technical capabilities, and quality
assurance capabilities, as well as organizations’ policies, procedures, and practices for effective and
efficient management of USAID/Pakistan resources. To date, USAID has completed 198 preaward
assessments.

USAID has also sponsored 14 institutional capacity-building activities and initiated 54 others, while
completing 4 research studies on streamlining project management units. Under the Lahore University
of Management Sciences (LUMS) component of the Assessment and Strengthening Program, 13 training
sessions have been completed on courses of study developed under the program. The courses are
designed for government, civil society, and local private sector participants at all levels. LUMS offers
participating organizations studies on financial management, procurement management, human
resources and administrative management, and monitoring and evaluation. The mission is also working
with the Office of the Auditor General (Pakistan’s Supreme Audit Institution) to strengthen its capacity
to provide audits required under government-to-government agreements.




                                                                                                     52
Staffing
The U.S. Mission in Pakistan—including USAID and Embassy components—increased its staff size in
Karachi, maintained its staff size at the regional office in Lahore, but saw staff size decrease in Islamabad
and Peshawar.

As shown in Table 12, USAID reported a total of 229 staff (49 U.S. direct hires and 180 others) as of
June 30, 2012. USAID mission management was unable to fill all vacancies during the quarter because of
limited availability of office facilities. The USAID mission has recruited staff so that it is in a position to
take advantage of the additional work space that will become available with the completion of a
temporary USAID office building. With an FY 2012 target of 296 staff, USAID/Pakistan remains
understaffed by 67 positions.

                        Table 12. USAID Staffing in Pakistan as of June 30, 2012

                                                                                                  Change From
         Category            Islamabad     Peshawar*       Lahore      Karachi            Total
                                                                                                  March 31, 2012

    U.S. direct hire              42             3            3            1                49          +2
    U.S. personal services
                                  15             4            0            1                20           –
    contractors

    Third-country
                                   9             1            0            0                10           –
    nationals
    Foreign Service
    Nationals                    105            21            10           7               143           -3
    (Pakistani staff)
    Eligible family                5             0            0            0                 5           –
    members
    Long-term
                                   2             0            0            0                 2            –
    temporary-duty staff†

Total Staff                      178            29            13           9               229           -1

Staff Target 2012                                                                          296

Staff Shortfall                                                                             67

Source: USAID/Pakistan.

*      Includes staff members assigned to Peshawar but currently residing in Islamabad.
†
       USAID/Pakistan counts long-term temporary-duty staff members (i.e., those in Pakistan for a year) occupying
       vacant positions toward total USAID/Pakistan positions.

                                                                                                               53
PAS personnel in Pakistan work in offices in Islamabad, Karachi, Lahore, and Peshawar. In total, PAS had
26 U.S. direct hires and 54 Pakistani staff members as of June 30, 2012. As of that date, NAS had 10
U.S. direct hires, 3 U.S. personal services contractors, 8 third-party contractors, and 73 Pakistani staff;
USDA had 2 permanent U.S. direct hires, 1 staff person on temporary-duty assignment, and 5 Pakistani
staff members. At the end of the reporting period, PRM had one U.S. direct hire, one eligible family
member on staff as a personal services contractor, and one locally engaged Pakistani employee. USIP
has one employee based in Pakistan.




                                                                                                        54
Risks and Mitigation Strategies
U.S. Government agencies and oversight entities have identified risks that could jeopardize the U.S.
Government’s assistance program in Pakistan and identified accompanying mitigation strategies. The
following challenges facing the civilian assistance program remained pertinent during this quarter:

   Political risks. Pakistan continued to experience political, economic, and security-related turmoil.
   Such instability limits progress by the Government of Pakistan and the U.S. Government in
   delivering an effective assistance program.

   Operating restrictions. Implementation and monitoring of U.S. Government-supported projects have
   been hindered by strict Government of Pakistan requirements for travel outside of Islamabad and
   provincial capitals. Visits to some areas require from several days’ to 3 weeks’ prior notification and
   sometimes the approval of the Ministry of Foreign Affairs; these restrictions delay and often lead to
   the cancellation of site visits. Obtaining visas and visa renewals continues to hamper recruitment
   and lower staff morale. As of April 1, 2012, 19 assignment visas, some of which had been pending
   for as long as 12 months, remained unissued. Further, local authorities continue to harass U.S.
   Government and Embassy personnel, especially local staff members. A May 2012 DOS OIG report
   noted that official Pakistani obstructionism and harassment had increased to the point where it was
   significantly impairing mission operations and program implementation, and recommended that the
   issue of harassment be made an integral part of high-level policy discussions with the Pakistani
   Government on the future of the bilateral relationship.

   Resistance to economic reform. Entrenched interests resist policy reforms needed to transform the
   economy. The effective governance, accountability, and financial solvency of power sector
   institutions is critical to economic reform. Political interference continues to undermine the
   decision-making ability of power company managers and regulatory officials. According to USAID, if
   Pakistan does not implement fundamental reforms, assistance from the United States and other
   donors will have limited long-term benefits.

   Vulnerability to natural disasters. Flood damage has delayed implementation of projects in affected
   areas. Because Pakistan is prone to natural disasters such as flooding, this is a regular risk. To help
   Pakistan address this risk, USAID supports programs in water storage and management, including
   the surface water management program for Balochistan and Gomal Zam Dam, which contribute to
   flood mitigation efforts. USAID/OFDA also has ongoing efforts to strengthen Pakistan’s ability to
   respond to disasters and reduce related risks.

   Adverse environmental impact.    USAID/Pakistan conducts environmental assessments before
   disbursing funds for projects. These assessments—for example, of the road from Tank to Wana
   and Kaur to Makeen in South Waziristan—sometimes identify concerns and potential risks regarding
                                                                                                       55
    the projects’ impact on the environment or communities. To address these environmental
    concerns, USAID takes steps to mitigate risks before continuing with project activities.

    Leadership turnover. High staff and leadership turnover within the Government of Pakistan and the
    U.S. Government affects planning, coordination, and implementation of programs. Senior managers
    at power companies and senior government officials at the Ministry of Water and Power are usually
    political appointees who spend less than 2 years in their positions. The devolution of federal
    programs for health, education, and agriculture to provinces with insufficient guidance on the
    expected roles and responsibilities of the federal, provincial, and district governments has also
    complicated project implementation. High U.S. Government staff turnover also limits the efficiency
    and effectiveness of assistance programs.

    Limited institutional capacity. In FATA, Khyber Pakhtunkhwa, Sindh, and Balochistan, where there is
    limited institutional capacity and insufficient staff with experience in financial and procurement
    management, extra effort is made to mitigate the risk of resources being lost through inefficiency,
    theft, or general lack of capacity to handle large amounts of funding.

    Inadequate financial management in Government of Pakistan institutions. The U.S. Government and the
    Government of Pakistan have collaborated to introduce special accounts for budget support
    provided by the United States to address financial challenges and maintain accountability. However,
    financial management, accountability, and reporting challenges continue. USAID is providing
    targeted financial management assistance to key Government of Pakistan institutions and
    collaborates with other donors on related matters through the Working Group on Public Financial
    Management.

    Security risks. Security concerns continue to reduce the ability of U.S. Government personnel to
    conduct direct monitoring and evaluation in conflict-affected areas, particularly Peshawar, FATA,
    Khyber Pakhtunkhwa, and Balochistan, and to engage Pakistani officials in project design. In late
    March 2012, a Balochistan Agriculture Project vehicle was attacked and two people associated with
    the project were killed and a third injured. However, project implementation continues. Following
    the incident on the Pakistan border in late November 2011, U.S. Government partners have been
    under severe scrutiny and, sometimes, threat for their association with the U.S. Government.

As described above, security conditions present an ongoing challenge for civilians providing assistance in
certain vulnerable areas, as well as for the U.S. Government’s ability to monitor and evaluate programs.
USAID is meeting the challenge through an independent monitoring and evaluation contract. Services
provided under the contract include routine monitoring, training on data entry for project performance,
mapping using a geographic information system, and conducting evaluations and assessments. The
integrity of the data provided by USAID/Pakistan’s implementing partners, which serves as the basis for
annual performance reporting, is also verified under the contract. Additionally, USAID’s Office of
Afghanistan and Pakistan Affairs, in conjunction with USAID/Pakistan, has developed a database (PakInfo)



                                                                                                       56
that includes indicators that USAID uses to measure the progress of its programs, as well as the
indicators that each implementing partner uses to track progress.

This performance reporting takes place within a larger framework designed to ensure that broader U.S.
strategic and operational objectives are met. USAID mission achievement is measured in line with the
performance indicators and targets identified in the mission results framework and performance
management plan. The results framework defines mission objectives and desired intermediate results in
each of the focus sectors for assistance to Pakistan, and the performance management plan provides
information on how the mission will collect data on and measure progress in these areas.

To reduce fiduciary risks, USAID has hired accounting firms to conduct preaward assessments to ensure
that potential recipients of USAID assistance meet U.S. transparency and accountability standards.
These assessments identify and document potential recipients’ weaknesses and areas for improvement.
USAID then actively works with partners to build capacity and mitigate risks. In addition, USAID
increasingly uses fixed-amount reimbursable agreements as a mechanism for assistance programs
implemented through Pakistani institutions. These agreements require milestones to be achieved and
independently verified before payments are processed.

USAID has also established an Assessment and Strengthening Program to build the institutional capacity
of local Pakistani organizations. The program helps identify, address, and validate responses to
institutional capacity weaknesses in public sector, civil society, and for-profit institutions. It enables
USAID/Pakistan to work with a wide range of local implementing partners and host-government
institutions in an effective, transparent, efficient, and responsive manner without having to resort to
one-off consultancies or rely on support arrangements provided on a project-by-project basis.

The capacity-building process focuses on specific organizational needs identified through preaward
assessments and on national development objectives and requirements. Efforts include developing
dedicated project management units in the government, improving policies and procedures, reviewing
and strengthening organizational structure, ensuring adequate internal controls, improving financial
management and procurement processes, increasing employee skills through on-the-job technical
assistance, and providing relevant tools and products for carrying out government functions.

In addition to these program strategies, the OIGs for USAID and DOS have taken the following steps to
ensure that U.S. Government funds are protected against waste and theft:

    Maintaining an in-country oversight presence. As of June 30, 2012, USAID OIG had 14 permanent staff
    in Islamabad (9 U.S. direct hires and 5 Foreign Service National employees), supplemented by a staff
    member on temporary duty. To support its Pakistan portfolio, DOS OIG had one U.S. direct hire
    and one U.S. personal services contractor on staff in Islamabad at the end of the reporting period.
    An additional DOS OIG U.S. direct-hire employee was scheduled to arrive in Pakistan in August.




                                                                                                       57
     Expanding the use of independent Pakistani public accounting firms to conduct financial audits of funds
     provided to Pakistani NGOs. As of June 30, 2012, USAID OIG had a roster of 28 eligible audit firms in
     Pakistan to call on. Since the passage of the Enhanced Partnership with Pakistan Act on October 15,
     2009, USAID OIG has nearly doubled the size of this roster.

     Providing training to Pakistani public accounting firms and to the Office of the Auditor General. USAID OIG
     training for Pakistani public accounting firms and the Office of the Auditor General covers the
     standards and requirements for financial audits of U.S. Government funds. In FY 2012, USAID OIG
     has provided this training to 13 employees of the Office of the Auditor General and 55 participants
     from 24 public accounting firms.

     Providing training to NGOs, government organizations, and USAID contracting and agreement officers’
     representatives and financial analysts. During the quarter, USAID OIG provided training on the
     standards and requirements for financial audits of U.S. Government funds to 73 participants from
     NGOs, 13 government officials, and 19 USAID staff members.

     Helping the Office of the Auditor General conduct financial audits. USAID OIG helps the office conduct
     financial audits of funds provided by USAID/Pakistan to Pakistani Government entities by providing
     support during the audit process. USAID OIG also reviews the final reports to ensure that the
     audits were performed in accordance with its Guidelines for Financial Audits Contracted by Foreign
     Recipients, dated February 2009.

     Working with Pakistan’s National Accountability Bureau.11 USAID OIG established a working
     relationship with the National Accountability Bureau in early 2010 and continues to coordinate
     efforts and collaborate on investigations.

     Collaborating with USAID/Pakistan to establish and maintain the Anti-Fraud Hotline in Pakistan. As the
     only one of its kind in Pakistan, the hotline provides a unique and useful tool for Pakistani citizens to
     provide feedback to USAID, its implementing partners, and the Government of Pakistan. This
     quarter, the hotline received 591 complaints through various channels—e-mail, Internet, facsimile,
     mail, and in person. These complaints relate to projects funded by USAID, the Pakistani
     Government, and international organizations.

     Providing fraud awareness briefings and expanding investigative coverage. USAID OIG investigators also
     conduct fraud awareness briefings to alert participants—employees, contractors, and grantees—to
     fraudulent practices and schemes and to provide guidance on how to report fraud. During the
     reporting period, special agents in Pakistan delivered seven fraud awareness briefings attended by
     128 participants, including USAID personnel and representatives of Agency contractors and NGOs.

11
   The National Accountability Bureau is the primary law enforcement agency in Pakistan responsible for
investigating white-collar crime and public corruption. It is Pakistan’s only law enforcement agency authorized to
conduct investigations in FATA.


                                                                                                               58
Coordinating audits and investigations with other U.S. agencies. USAID OIG coordinates audit and
investigative work with other OIGs, GAO, and law enforcement agencies including the Federal
Bureau of Investigation’s International Corruption Unit, the National Procurement Task Force, the
Financial Crimes Enforcement Network, and the U.S. Embassy’s Legal Attaché Office to eliminate
duplication and maximize efficient use of government resources.




                                                                                              59
Oversight Status
Because U.S. civilian assistance programs and activities in Pakistan are implemented by several agencies,
more than one oversight organization has the authority to conduct related audits, reviews, inspections,
and investigations. The OIGs for DOD, DOS, USAID, and USDA, as well as GAO reported that they
had planned or executed oversight functions during the quarter; the OIGs for DOC, the Department of
Homeland Security, and the Department of Justice reported that they did not undertake or complete
any oversight activities specific to Pakistan during the reporting period and had no planned audit work
pertaining to Pakistan during the remainder of FY 2012.


Department of Defense Office of Inspector General

Work Under Way

As of June 30, 2012, DOD OIG had two audits under way that may affect U.S. assistance to Pakistan:

    Audit of the Counter Narcoterrorism Technology Program Office’s Mi-17 Overhaul
    Contracts. This audit will determine whether the oversight and management of Northrop
    Grumman contracts for 1,500-hour maintenance overhauls of Mi-17 aircraft were performed in
    accordance with federal requirements and whether contracting officers ensured that contract prices
    were fair and reasonable. Included in the contracts were eight Mi-17 helicopters belonging to
    Pakistan. Those aircraft have been overhauled and returned to Pakistan. DOD OIG expects to
    complete this audit in August 2012.

    Audit of Mi-17 Overhauls and Cockpit Modifications. This audit is being conducted to
    determine whether DOD officials awarded and administered Science and Engineering Services Inc.
    contracts for the overhaul and modification of Mi-17 aircraft in accordance with U.S. Government
    and DOD regulations and policies. Included in the contracts were five Pakistani helicopters;
    however, a stop-work order was issued for this effort before Pakistan delivered the helicopters for
    overhaul. In April 2012, DOD officials discussed with Science and Engineering Services Inc. the
    possibility of terminating the contract for convenience. No further contract action has been taken.


Department of State Office of Inspector General

Work Completed

From April 1 to June 30, 2012, DOS OIG completed one inspection and one evaluation related to
Pakistan:

    Compliance Followup Review of Embassy Islamabad and Constituent Posts, Pakistan
    (Report No. ISP-C-12-28A, May 24, 2012). DOS OIG inspectors concluded that Embassy

                                                                                                      60
leadership deserved great credit for its role in managing the fallout from a series of major events in
2011, including the shooting of two Pakistanis by an American in Lahore in January, the assault
against Osama bin Laden’s compound in Abbottabad in May, and the unintended attack by the North
Atlantic Treaty Organization/International Security Assistance Force on a Pakistani border post,
which resulted in the death of 24 Pakistani soldiers in November. Embassy reporting at all levels
provided a clear-eyed assessment of realities in Pakistan, as well as sober advice to Washington on
how to deal with them. However, Embassy leadership needed to accelerate its assessment of the
implications of the changing relationship between the United States and Pakistan so that decisions
could be made to shape discussions in Washington on program and operating budgets, as well as
staffing and construction plans in-country. Inspectors also observed that the mission struggled to
program more than $2 billion in annual funding for development and security assistance programs
and to manage proposed staffing increases and housing needs. However, OIG credited the mission’s
public affairs program with initiating a creative new effort to counter violent extremism that could
serve as a model elsewhere.

Inspectors found that one of the Embassy’s greatest challenges was managing Washington’s intense
and at times intrusive involvement and its voracious appetite for information on the situation in
Pakistan. While this involvement ensured that mission concerns received both timely and top-level
attention, meeting Washington’s needs also consumed extraordinary amounts of mission
personnel’s time and energy and added significantly to the stresses at this already stressed post.
DOS OIG inspectors also noted that official Pakistani obstructionism and harassment had increased
to the point where they were significantly impairing mission operations and program implementation
and adversely affecting the security of the mission and its staff.

The DOS OIG team determined that Embassy Islamabad had complied with almost all of the
recommendations from its 2010 inspection. The team recommended that the issue of harassment
must be made an integral part of high-level policy discussions with the Pakistani Government on the
future of the bilateral relationship. The team also made recommendations regarding DOS
headquarters’ involvement and communication with the mission, the mission’s public outreach
efforts, and staffing and space issues, among others.

Evaluation of the Antiterrorism Assistance Program for Countries Under the Bureaus
of Near Eastern Affairs and South and Central Asian Affairs (AUD/MERO-12-29,
April 30, 2012). DOS OIG evaluated the degree to which the Bureau of Diplomatic Security’s
ATA Program had achieved its intended outcomes and whether the bureau had provided effective
oversight of ATA contracts and U.S. Government-provided equipment. DOS OIG found that
Diplomatic Security could not determine the ATA program’s effectiveness because it had not
developed specific, measurable, and outcome-oriented program objectives or implemented a
mechanism for program evaluation. As a result, the Department had no assurance that the ATA
program was achieving its intended statutory purposes or that the overall or individual programs
were successful. Further, the evaluation found that the bureau had no basis for determining when
partner countries were capable of sustaining their own ATA programs without U.S. support. The
bureau had not appointed a contracting officer’s representative to provide oversight of contractor-
provided training or developed a process for ensuring that the contractor was meeting contract

                                                                                                   61
   requirements, shortcomings that increased the risk of not meeting contract requirements. Program
   staff members were conducting periodic end-use monitoring inspections for U.S. Government-
   provided equipment. However, equipment records were not complete, and equipment was
   sometimes unused or incompatible with the partner country’s existing equipment; in some cases, it
   exceeded the country’s needs.

Work Under Way

As of June 30, 2012, DOS OIG had two audits and one evaluation under way:

   Audit of the U.S. Mission in Pakistan’s Local Guard Force Contract. The audit will
   evaluate DOS’s contract with a security contractor, G4S, to determine whether the contract has
   been administered effectively and whether G4S has achieved established performance goals. The
   contract with G4S includes provision of the local guard force for Embassy Islamabad, as well as for
   the three U.S. consulates in Pakistan.

   Audit of the Administration and Oversight of the Pakistan National Police Training and
   Mentoring Program. This audit will evaluate whether the Bureau of International Narcotics and
   Law Enforcement Affairs is efficiently and effectively managing the Pakistan Law Enforcement Reform
   Program and determine whether the bureau is achieving intended and sustainable results through
   each component of the program.

   Performance Evaluation of Management Controls Over Civilian Assistance to Pakistan.
   The evaluation will review DOS’s civilian assistance to Pakistan (excluding USAID programs) to
   determine whether management controls are in place, documented, and operating as intended and
   to ensure that DOS-administered funds are protected from waste, fraud, and diversion.

Work Planned

In addition to those under way, DOS OIG plans to conduct one evaluation and one audit of Pakistan-
related programs and activities during FY 2012:

   Evaluation of the Emergency Action Plan for Embassy Islamabad. The evaluation will
   focus on Embassy Islamabad’s formulation of a comprehensive Emergency Action Plan, the
   completeness of associated documentation, and the general knowledge and preparedness of all
   mission personnel.

   Audit of the Administration and Oversight of Economic Support Funds for Pakistan.
   This audit will determine whether DOS is effectively administering and overseeing the funds.




                                                                                                   62
USAID Office of Inspector General

USAID OIG oversees foreign assistance programs administered by USAID, the Millennium Challenge
Corporation, the United States African Development Foundation, and the Inter-American Foundation.
USAID OIG has strengthened its focus on Pakistan since USAID reopened its Pakistan mission in 2002.
In recent years, OIG has covered a wide array of USAID programs in Pakistan, for relief and
stabilization, reconstruction, sustainable development, education, and health care. USAID OIG’s
oversight activities include performance audits and reviews, financial audits, and investigations.

Since the start of FY 2010, USAID OIG has issued 32 Pakistan-based financial audits and 18 performance
audits and reviews of Pakistan-related assistance efforts. The reports made 109 recommendations for
improvements to USAID programs and activities. Performance audits conducted since FY 2010 have
noted improvements needed in a range of management and performance areas. Most have identified
contract or project management deficiencies, and more than four in ten have found internal control
weaknesses and noncompliance with relevant procedures or regulations. Financial audits overseen by
OIG since FY 2010 have covered $398.7 million in expenditures. OIG audits over the period have
identified approximately $23.7 million in sustained questioned costs and funds to be put to better use.

Work Completed

From April 1 to June 30, 2012, USAID OIG completed two performance audits, one review, six financial
audits, and two quality control reviews:

   Audit of USAID/Pakistan’s Entrepreneurs Project (Report No. G-391-12-005-P,
   April 20, 2012). The program provided local partners with training on USAID financial
   management, procurement, and human resource requirements as well as technical instruction on
   the value chain concept to enable them to help owners of microenterprises increase output and
   improve their commodities’ quality and marketability. However, efforts to build capacity in
   developing value chains did not start until May 2011, almost 2 years after the award. In addition, the
   program made little progress in developing one of its target sectors—the honey sector—because
   the mission took longer than expected to approve the local partner’s grant application and then
   required an additional feasibility study before proceeding. Finally, because USAID/Pakistan had not
   yet started tracking changes in beneficiaries’ incomes, it was not possible to determine whether the
   program was achieving its overall goal of substantially increasing the incomes of microenterprise
   owners. The report made two recommendations to address related issues.

   Audit of USAID/Pakistan’s Support to the Benazir Income Support Program (Report
   No. G-391-12-006-P, May 21, 2012). In September 2009, USAID/Pakistan signed an $85 million
   cash transfer grant agreement with the Government of Pakistan for the Benazir Income Support
   Program. The program provides poor families with regular cash payments as a way of stabilizing the
   economy. Enrolled beneficiaries receive 2,000 rupees (about $22) every 2 months. Following the
   initial agreement, the Government of Pakistan and USAID/Pakistan signed an amendment to the
   agreement in June 2010, providing an additional $75 million and bringing the total amount to $160


                                                                                                      63
million. The audit concluded that the first installment or tranche of $85 million transferred to the
Government of Pakistan in February 2010 was disbursed by the program to approximately 480,000
beneficiaries. Regarding the second tranche, the audit found that in July 2010 $75 million was
transferred to the separate dollar account set up under the agreement. The Government of
Pakistan promptly withdrew this money and placed the equivalent value of 6.4 billion rupees in the
special local currency account. However, as of March 2012, USAID/Pakistan had not authorized the
Government to transfer this money to the program because mission officials have been unable to
verify that the program has implemented an effective monitoring and evaluation plan. The report
made three recommendations to address related issues.

Review of USAID/Pakistan’s Cost Estimates for Shipping and Storage (Report No. G-
391-12-001-S, June 18, 2012). The purpose of this review was to develop a more reasonable
estimate for obligating funds for the shipping and storage of goods for employees assigned to
USAID/Pakistan. The report recommended that by reducing the standard obligation from $25,000
to $15,000, the mission could put an estimated $480,000 annually and $2.4 million over 5 years to
better use. The report also recommended that the mission review $860,000 in unliquidated
shipping and storage-related obligations for possible deobligation.              In response to the
recommendations, the mission reduced the standard shipping and storage obligation to $15,000 and
completed a review of unliquidated obligations, resulting in a total deobligation of $653,259.

Financial Audit of the USAID Resources Managed by the National Rural Support
Programme (NRSP), for the Period July 1, 2010, to June 30, 2011 (Report No. G-391-
12-008-R, April 3, 2012). The audit covered total revenues and costs of $10,200,917 and
$9,942,572, respectively, under USAID agreements and subagreements managed by NRSP. The
audit concluded that, with the exception of the effects of questioned ineligible costs of $39,745, the
fund accountability statement presented fairly, in all material respects, program revenues and costs
incurred under the agreements for the period audited. The questioned costs pertained to interest
earned on bank balances that had not been refunded to USAID. The audit firm did not identify any
material weakness in internal control, but identified two material instances of noncompliance—one
associated with the questioned costs, and the other related to the recipient not fully complying with
the requirement to vet vendors to deter terrorism financing.                 The report made two
recommendations.

Financial Audit of the Monitoring and Evaluation Project, USAID/Pakistan Contract
No. 391-C-00-10-01138-00, and Assessment and Strengthening Program,
USAID/Pakistan Cooperative Agreement No. 391-C-00-10-01203-00, Managed by
Associates in Development (Private) Limited, for the Period January 1, 2010, to
June 30, 2011 (Report No. G-391-12-009-R, April 17, 2012). The audit covered total
revenues and costs of $2,564,077 and $2,560,600, respectively. Of this total, OIG questioned
$316,937. OIG also identified ten significant deficiencies in internal control—including the failure to
perform conflict-of-interest checks and the use of unreasonable rates in compensating personnel—
and a number of material instances of noncompliance. The report made three recommendations to
address these matters.


                                                                                                    64
Financial Audit of the Pakistan Children’s Television Project, USAID/Pakistan
Agreement No. 391-A-00-10-01161-00, Managed by the Rafi Peer Theatre Workshop,
for the Period May 7, 2010, to June 30, 2011 (Report No. G-391-12-010-R, April 17,
2012). This audit covered total revenues and costs of $2,630,336 and $906,523, respectively.
Auditors concluded that, with the exception of the effects of unsupported costs of $15,629, the fund
accountability statement presented fairly, in all material respects, program revenues and costs
incurred under the agreement for the period audited. These unsupported costs pertained to
equipment and other direct program expenses for which the auditee did not provide bills, invoices,
or other adequate documentation. OIG questioned an additional $595,394 in personnel costs
because of a lack of personnel activity reports and the cumulative effect of associated weaknesses
and deficiencies in internal controls. Auditors also questioned $121,523 in costs claimed as part of
the cost sharing arrangement with USAID. Some of these costs were ineligible for reimbursement
by USAID and others lacked any supporting documentation.

Auditors also identified internal control weaknesses and instances of noncompliance. OIG
concluded that 15 internal control weaknesses found by auditors were material. These weaknesses
included issues with the recruitment, hiring, and payment of personnel; integrity of financial records;
and improper classification of costs. OIG determined that 11 instances of noncompliance identified
by auditors were also material, including the auditee’s lack of a conflict-of-interest policy, omission
of mandatory contract clauses, and failure to broadcast television productions within prescribed
time frames. The report made five recommendations.

Financial Audit of Projects Managed by Lahore University of Management Sciences:
Foreign Recipient Contracted Assessment and Strengthening Program Under
Cooperative Agreement No. 391-A-00-11-01202-00, and Subrecipient Contracted Merit
and Needs-Based Scholarship Program Under Grant Agreement No. 391-G-00-04-
01023-00, for the Year Ended June 30, 2011 (Report No. G-391-12-011-R, April 24,
2012). This audit covered total revenues and costs of $197,619 and $281,774, respectively.
Auditors concluded that the fund accountability statement presented fairly, in all material respects,
revenues and costs incurred under the agreements for the period audited. They did not identify any
significant deficiencies or material weaknesses in internal control, but found four material instances
of noncompliance relating to the hiring of key staff, unsigned agreements, deficiencies in internal
procedures, and incomplete monitoring and evaluation plans. The audit made one recommendation
to address these issues.

Financial Audit of USAID/Pakistan Grant Agreement No. 391-IL-00-08-01111-00
Managed by the Health Service Academy, for the Period July 1, 2010, to June 30, 2011
(Report No. G-391-12-012-R, May 10, 2012). The audit covered total revenues and costs of
$569,115 and $565,021, respectively, associated with a USAID-funded project to develop and
strengthen Pakistani institutional capacity in public health training and research. Auditors concluded
that, except for the effects of $4,989 in unsupported costs, the fund accountability statement
presented fairly, in all material respects, program revenues and costs incurred under the
cooperative agreement for the period audited. Some procurement costs identified during the audit
were questioned because required documentation supporting the procurement decisions was not

                                                                                                    65
   available. The audit also found two material weaknesses in internal control associated with the
   questioned costs. The audit made three recommendations.

   Financial Audit of the Gender Equity Program, USAID/Pakistan Agreement No. 391-A-
   00-10-01162-00, Managed by the Aurat Publication and Information Service
   Foundation, for the Period August 15, 2010, to June 30, 2011 (Report No. G-391-12-
   013-R, June 12, 2012). The audit covered total revenues and costs of $1,044,234, and concluded
   that the fund accountability statement presented fairly, in all material respects, program revenues
   and costs incurred under the agreement for the period audited. However, auditors identified a
   material weakness in internal control related to the failure to implement an internal audit plan, and
   found a significant deficiency related to the implementation of the project monitoring system. The
   report made one recommendation to address these issues.

   Quality Control Review of the Audit Report and Audit Documentation for the Financial
   Audit Conducted by Avais Hyder Liaqut Nauman of Anti-Corruption Program
   Pakistan, USAID/Pakistan Cooperative Agreement No. 391-A-00-09-01117-00, and the
   Anti-Fraud Hotline Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-
   10-01194-00, Managed by Transparency International–Pakistan, for the Year Ended
   June 30, 2011 (Report No. G-391-12-002-Q, April 3, 2012). USAID OIG auditors examined
   audit documentation to determine whether the audit firm performed the audit in accordance with
   U.S. Government Auditing Standards issued by the Comptroller General of the United States and
   OIG Guidelines for Financial Audits Contracted by Foreign Recipients. The review revealed nine
   instances in which the audit firm did not fully comply with audit documentation requirements.
   While the audit work generally met requirements, the audit firm is designated as having only
   ―conditional‖ approval to perform audits of USAID awards.

   Quality Control Review of the Audit Report and Audit Documentation for the Financial
   Audit Conducted by Ernst & Young Ford Rhodes Sidat Hyder of the Gender Equity
   Program, USAID/Pakistan Cooperative Agreement No. 391-A-000-10-011622-00,
   Managed by Aurat Publication and Information Service Foundation, for the Period
   August 15, 2010, to June 30, 2011 (Report No. G-391-12-003-Q, June 12, 2012). USAID
   OIG auditors examined audit documentation to determine whether the audit firm performed the
   subject audit in accordance with applicable auditing standards and guidance. The review concluded
   the audit firm complied with relevant requirements. However, the review identified other areas in
   which the audit firm could improve compliance in future audits of USAID awards.

Work Under Way

As of June 30, 2012, USAID OIG had 3 performance audits and 15 financial audits in progress:

   Audit of USAID/Pakistan’s Reconstruction Activities in Earthquake-Affected Areas.
   The objective of this audit is to determine whether USAID/Pakistan’s reconstruction activities in
   earthquake-affected areas are being implemented effectively.


                                                                                                     66
Audit of USAID/Pakistan’s Assessment and Strengthening Program for Local
Organizations and Government of Pakistan Entities. This audit will determine whether the
program is improving the capacity of local organizations and Government of Pakistan entities to
manage USAID funds responsibly.

Audit of USAID/Pakistan’s Gomal Zam Multipurpose Dam Project. This audit will
determine whether USAID/Pakistan’s funding to complete the Gomal Zam Multipurpose Dam
contributed to achieving overall project goals related to power generation, irrigation, and flood
control.

Financial Audit of USAID Funds Managed by the Ministry of Economic Affairs and
Statistics (Economic Affairs Division) Under the Cash Transfer Grant Agreement,
Activity No. 391-012-IL-03 for University and Technical Education in FATA Through the
Pakistan Higher Education Commission, for the Period September 30, 2009, to June 30,
2010.

Financial Audit of USAID Funds Managed by the Ministry of Economic Affairs and
Statistics (Economic Affairs Division) Under the Assistance Agreement, Activity
No. 391-011 for Implementation of Assistance Programs for the Population of Conflict
Affected Areas, Managed by the Provincial Disaster Management Authority, for the
Year Ended June 30, 2011.

Financial Audit of USAID Funds Managed by the Water and Power Development
Authority Under Agreement No. 391-TDR-FARA-002-00 for the Year Ended June 30,
2011.

Financial Audit of USAID Funds Managed by the Water and Power Development
Authority Under Agreement No. 391-PEPA-ENR-GOMAL-PIL-001, for the Year Ended
June 30, 2011.

Financial Audit of USAID Funds Managed by the Water and Power Development
Authority Under Agreement No. 391-PEPA-ENR-SATPARA-PIL-001, for the Year
Ended June 30, 2011.

Financial Audit of USAID Funds Managed by Jamshoro Power Company Limited Under
Agreement No. 391-JAM-FARA-003-00, for the Year Ended June 30, 2011.

Financial Audit of USAID Funds Managed by Northern Power Generation Company
Limited Under Agreement No. 391-MUZ-FARA-004-00, for the Year Ended June 30,
2011.

Financial Audit of USAID Funds Managed by the Provincial Reconstruction and
Rehabilitation and Settlement Authority Under Agreement Nos. 391-MLK-FARA-001-


                                                                                              67
   00 and 391-MLK-FARA-002-00 for the Reconstruction of Schools, for the Period April 9,
   2010, to June 30, 2011.

   Financial Audit of USAID Funds Managed by the FATA Secretariat Under Agreement
   No. 391-SWA-FARA-001-00 for the Widening and Improvement of the Jandola-Kotkai-
   Sararogha Road, for the Year Ended June 30, 2011.

   Financial Audit of USAID Funds Managed by the FATA Secretariat Under Agreement
   No. 391-AAG-011-SWA-TANK for the Tank-Kaur and Kaur-Jandola Road, for the Year
   Ended June 30, 2011.

   Financial Audit of USAID Funds Managed by the FATA secretariat Under Agreement
   No. 391-013-002 for the Kaur-Gomal-Tanai-Wana Road, for the Year Ended June 30,
   2011.

   Financial Audit of USAID Funds Managed by the FATA Secretariat Under Agreement
   No. 391-013-001 for the Reactivation and Rehabilitation of Damaged Transformers, 33-
   Kilovolt High-Tension and 11-Kilovolt Low-Tension Lines, for the Period March 10,
   2011, to June 30, 2011.

   Financial Audit of USAID Funds Managed by the Higher Education Commission Under
   the Merit and Needs-Based Scholarship Program, USAID Activity No. 391-G-00-04-
   01023-00, for the Year Ended June 30, 2011.

   Agreed Upon Procedures Review of USAID/Pakistan Resources Managed by the Rural
   Support Programs Network Under Agreement No. 391-A-00-11-01213-00 for the Sindh
   Agricultural Recovery Project, for the Period November 13, 2010, to July 31, 2011.

   Agreed-Upon Forensic Procedures Review of USAID/Pakistan Resources Managed by
   the Rafi Peer Theatre Workshop Under Agreement No. 391-A-00-10-01161-00 for the
   Pakistan Children’s Television Project, for the Period May 7, 2010, to May 30, 2012.

Work Planned

In addition to those completed and under way, USAID OIG plans to conduct two performance audits
during the remainder of FY 2012:

   Audit of USAID/Pakistan’s Design for Sustainability in the Jamshoro Thermal Power
   Station Repair and Maintenance Activity. This audit will determine whether USAID/Pakistan
   has built sustainability into the repair and maintenance of the Jamshoro Thermal Power Station.




                                                                                               68
    Audit of USAID/Pakistan’s Monitoring and Evaluation Program. This audit will determine
    whether USAID/Pakistan is using results from its monitoring and evaluation program to manage its
    portfolio.

OIG also plans to conduct a financial audit of USAID/Pakistan’s financial statements as part of its overall
USAID financial statement audit for FY 2012.

Investigative Work and the Anti-Fraud Hotline

As of June 30, 2012, USAID OIG had 25 open investigations pertaining to Pakistan.              During the
reporting period, OIG investigators closed two cases.

The following significant USAID OIG investigative developments took place between April 1 and
June 30, 2012:

    USAID Ends $20 Million Pakistan Children’s Television Project. In late 2011, USAID OIG
    initiated an investigation into the Pakistan Children’s Television Project implemented by the Rafi
    Peer Theater Workshop, after receiving numerous complaints regarding the project through the
    Anti-Fraud Hotline. To date, the OIG investigation has revealed significant violations of USAID
    procurement policies and standards. In May 2012, OIG referred its initial findings to the USAID
    mission in Pakistan, and later that month, USAID agreed with the Rafi Peer Theater Workshop to
    end the $20 million cooperative agreement. OIG’s investigation is ongoing.

    USAID Proposes Sindh Rural Support Organization for Debarment. In February 2012,
    USAID OIG referred the Sindh Rural Support Organization to USAID for debarment based on a
    year-long investigation of alleged mismanagement, theft, and corruption associated with its
    participation in several USAID-funded projects. To date, the investigation has resulted in the
    termination of 23 of the organization’s personnel. Two individuals were terminated in April 2012
    after the OIG investigation revealed that they had harassed a group of villagers who had filed
    complaints with the Anti-Fraud Hotline and ultimately had the villagers sign falsified documentation
    indicating that they had received payment under a USAID project when they had not. The
    investigation revealed that the organization’s CEO sent the employees to the village and that the
    falsified documents were submitted as an official response to the ongoing OIG investigation. USAID
    proposed the Sindh Rural Support Organization for debarment in early May 2012. Based on the
    findings of a related forensic audit conducted by WFP in conjunction with USAID OIG, WFP
    permanently suspended the organization from participation in future projects in late March 2012.

    OIG Investigation Results in Employee Termination and Referral for Debarment. An
    OIG investigation related to the $50 million Small Grants and Ambassador’s Fund Program,
    implemented by the National Rural Support Programme revealed that an NRSP employee conspired
    with a program grantee to falsify project-related financial documentation. The investigation revealed
    that the grantee, the Peshawar-based Khushal Welfare Organization (KWO), fabricated
    documentation indicating that workers had been paid as part of an $86,000 agricultural rehabilitation


                                                                                                        69
    grant when, in fact, they had not. The falsified documentation was submitted to substantiate claims
    that KWO met its cost-sharing requirements under the grant. During the OIG investigation, an
    NRSP employee admitted to knowingly certifying the falsified documentation. NRSP terminated the
    employee involved in the misconduct in March 2012. USAID OIG referred the NRSP employee and
    KWO to USAID for possible suspension or debarment.

Anti-Fraud Hotline. During the reporting period, USAID OIG also continued to work closely with
the hotline to vet and investigate incoming complaints. This quarter, the hotline received 591
complaints.

As in the previous three quarters, most hotline complaints originated from Sindh Province in
southeastern Pakistan, the seat of Pakistan’s largest city and site of flooding last fall. During this quarter,
total complaints by province were as follows: Sindh 454 (77 percent), Punjab 55 (9 percent), Balochistan
32 (5 percent), and Khyber Pakhtunkhwa 18 (3 percent). Other provinces and administrative areas in
Pakistan combined to account for 5 percent of complaints.

As shown in the following graphic, the majority of complaints received during the reporting period
related to service delivery.


                        Distribution of Hotline Complaints by Type

                                        12%

                       19%                       6%
                                                                Solicitation of Bribe, Kickback, or Favor
                                                      1%
                                                                Theft of Goods

                                                                Procurement Fraud

                                                                Problem with Service Delivery

                                                                Other
                                  62%




                Source: Transparency International–Pakistan.


Since its introduction in February 2011, the Anti-Fraud Hotline has been widely advertised on television,
radio, newspaper, and billboards. As the only one of its kind in Pakistan, the hotline has received a large
volume of complaints related to programs implemented by other agencies. USAID OIG refers these
complaints to the appropriate agency for further review and investigation. From April 1 to June 30,
2012, OIG referred 186 hotline complaints to outside entities, including WFP, UNICEF, the U.N.
Development Programme, the U.N. Office for Project Services, the U.N. Food and Agriculture
Organization, Pakistan’s BISP, Save the Children, Mercy Corps, and NRSP.

                                                                                                            70
U.S. Department of Agriculture Office of Inspector General

Work Under Way

As of June 30, 2012, USDA OIG had one audit under way relating to civilian assistance to Pakistan:

    Audit of Section 632(a) Transfer of Funds From the U.S. Agency for International
    Development to the U.S. Department of Agriculture for Pakistan. This audit will evaluate
    the adequacy of the management controls established by USDA agencies to monitor and oversee
    funds transferred under Section 632(a) of the Foreign Assistance Act of 1961 (Public Law 87-195,
    September 4, 1961), as amended. Specifically, the audit will evaluate whether transferred funds are
    being used in accordance with the memorandum of agreement between USAID and USDA.


Government Accountability Office

GAO continues to assist congressional clients by conducting increased oversight of U.S. efforts in
Pakistan. GAO completed one Pakistan-related engagement but had no other related work under way
during this reporting period. GAO’s plans for additional Pakistan-related work in FY 2012 are subject to
congressional interests and requests.

Work Completed

From April 1 to June 30, 2012, GAO completed one engagement concerning Pakistan.

    Combating Terrorism: State Should Enhance Its Performance Measures for Assessing
    Efforts in Pakistan to Counter Improvised Explosive Devices (GAO-12-614, May 15,
    2012). Multiple U.S. agencies and international partners are engaged in efforts to assist Pakistan in
    countering IEDs but face challenges such as delays in obtaining visas and in the delivery of
    equipment. The U.S. FY 2013 Mission Strategic and Resource Plan for Pakistan includes a new
    performance indicator to track some of Pakistan’s efforts to counter IEDs, but the indicator and
    targets used to measure progress do not cover the full range of U.S.-assisted efforts. To improve
    DOS’s ability to track progress of efforts in Pakistan to counter IEDs, GAO recommended that the
    Secretary of State direct the U.S. Mission in Pakistan to enhance its counter-IED performance
    measures to cover the full range of U.S. assisted efforts. DOS committed to look for ways to
    broaden the scope of existing metrics to better reflect and evaluate interagency participation in
    counter-IED efforts.

Work Under Way

GAO did not have any ongoing Pakistan-related engagements as of June 30, 2012.




                                                                                                      71
Completed Oversight Reports as of June 30, 2012

Table 13 lists oversight reports completed since the passage of the Enhanced Partnership with Pakistan
Act, October 15, 2009.

                  Table 13. Oversight Reports Completed as of June 30, 2012

 Agency      Report Number       Report Date                           Report Title

FY 2012 Reports

                                                Review of USAID/Pakistan’s Cost Estimates for Shipping and
USAID        G-391-12-001-S        06/18/12
                                                Storage

                                                Financial Audit of the Gender Equity Program Managed by the
USAID        G-391-12-013-R        06/12/12     Aurat Publication and Information Service Foundation, for the
                                                Period August 15, 2010, to June 30, 2011

                                                Quality Control Review of the Audit Report and Audit
                                                Documentation for the Financial Audit Conducted by Ernst &
                                                Young Ford Rhodes Sidat Hyder of the Gender Equity
USAID        G-391-12-003-Q        06/12/12
                                                Program, Managed by Aurat Publication and Information
                                                Service Foundation, for the Period August 15, 2010, to
                                                June 30, 2011

                                                Compliance Followup Review of Embassy Islamabad and
DOS          ISP-C-12-28A          05/24/12
                                                Constituent Posts, Pakistan

                                                Audit of USAID/Pakistan’s Support to the Benazir Income
USAID        G-391-12-006-P        05/21/12
                                                Support Program

                                                State Should Enhance Its Performance Measures for Assessing
GAO          GAO-12-614            05/15/12
                                                Efforts in Pakistan to Counter Improvised Explosive Devices

                                                Financial Audit of the USAID/Pakistan Grant Agreement
USAID        G-391-12-012-R        05/10/12     Managed by the Health Service Academy, for the Period
                                                July 1, 2010, to June 30, 2011

                                                Evaluation of the Antiterrorism Assistance Program for
DOS          AUD/MERO-12-29        04/30/12     Countries Under the Bureaus of Near Eastern Affairs and
                                                South and Central Asian Affairs

                                                Financial Audit of Projects Managed by Lahore University of
                                                Management Sciences: the Foreign Recipient Contracted
USAID        G-391-12-011-R        04/24/12     Assessment and Strengthening Program and Subrecipient
                                                Contracted Merit and Needs-Based Scholarship Program, for
                                                the Year Ended June 30, 2011

USAID        G-391-12-005-P        04/20/12     Audit of USAID/Pakistan’s Entrepreneurs Project




                                                                                                          72
 Agency   Report Number    Report Date                           Report Title

                                         Financial Audit of the Pakistan Children’s Television Project
USAID     G-391-12-010-R     04/17/12    Managed by the Rafi Peer Theatre Workshop, for the Period
                                         May 7, 2010, to June 30, 2011

                                         Financial Audit of the Monitoring and Evaluation Project and
                                         Assessment and Strengthening Program Managed by
USAID     G-391-12-009-R     04/17/12
                                         Associates in Development (Private) Limited, for the Period
                                         January 1, 2010, to June 30, 2011

                                         Financial Audit of the USAID Resources Managed by National
USAID     G-391-12-008-R     04/03/12    Rural Support Programme (NRSP), for the Period July 1,
                                         2010, to June 30, 2011

                                         Quality Control Review of the Audit Report and Audit
                                         Documentation for the Financial Audit Conducted by Avais
                                         Hyder Liaqut Nauman of Anti-Corruption Program Pakistan
USAID     G-391-12-002-Q     04/03/12
                                         and the Anti-Fraud Hotline Program Managed by
                                         Transparency International–Pakistan, for the Year Ended
                                         June 30, 2011

                                         Financial Audit of USAID/Pakistan’s Rupee Trust Fund for the
USAID     G-391-12-001-N     03/20/12
                                         Period October 1, 2009, to September 30, 2011

                                         Audit of USAID/Pakistan’s Pre-Service Teacher Education
USAID     G-391-12-004-P     03/16/12
                                         Program

                                         Financial Audit of the Pakistan Competitiveness Support Fund
USAID     G-391-12-007-R     03/06/12
                                         for the Period July 1, 2010, to June 30, 2011

                                         Financial Audit of Budgetary Support Managed by the
USAID     G-391-12-006-R     02/24/12    Economic Affairs Division of the Government of Pakistan for
                                         the Period June 8, 2009, to June 15, 2011

                                         Quality Control Review of the Financial Audit Conducted by
                                         the Directorate General Audit, Federal Government,
                                         Department of the Auditor General of Pakistan, of the Merit
USAID     G-391-12-001-Q     02/17/12
                                         and Needs-Based Scholarship Project Managed by the Higher
                                         Education Commission, for the Period July 2, 2004, to
                                         June 30, 2010

                                         Financial Audit of the Merit and Needs-Based Scholarship
USAID     G-391-12-005-R     02/17/12    Project Managed by the Higher Education Commission for the
                                         Period July 2, 2004, to June 30, 2010

USAID     G-391-12-003-P     02/03/12    Audit of USAID’s Pakistan Transition Initiative Program

                                         Financial Audit of Anti-Corruption Program Pakistan and
USAID     G-391-12-004-R     01/13/12    Anti-Fraud Hotline Pakistan Managed by Transparency
                                         International–Pakistan for the Year Ended June 30, 2011



                                                                                                   73
 Agency     Report Number    Report Date                            Report Title

                                           Financial Audit of the Aga Khan University Flood Response
USAID       G-391-12-003-R     01/06/12    Program for the Period August 30, 2010, to December 31,
                                           2010

                                           Pakistan: Assessment of State’s Justification to Support Its
GAO         NA                 11/29/11
                                           Certification of Pakistan’s Cooperation (Classified)

                                           Audit of USAID/Pakistan’s Energy Efficiency and Capacity
USAID       G-391-12-002-P     11/23/11
                                           Program

USAID       G-391-12-001-P     11/3/11     Audit of USAID/Pakistan’s Firms Project

                                           Financial Audit of Budgetary Support to the Government of
                                           Pakistan, USAID/Pakistan Program Assistance Agreement No.
USAID       G-391-12-002-R     11/3/11
                                           391-005-ES-07, Managed by the Ministry of Finance, for the
                                           Year Ended June 30, 2008

                                           Financial Audit of Budgetary Support Managed by the Benazir
USAID       G-391-12-001-R     10/26/11    Income Support Program for the Period From September 30,
                                           2009, to March 31, 2011

FY 2011 Reports

                                           Financial Audit of the Business Revitalization Program
USAID       G-391-11-005-R     9/21/11     Managed by Khushhali Bank for the Period February 6, 2010,
                                           to December 31, 2010

                                           Combating Terrorism: Pakistan Counterinsurgency Funds
GAO         GAO-11-860SU       9/20/11     Disbursed, but Human Rights Vetting Process Can Be
                                           Enhanced

                                           Audit of USAID/Pakistan’s Community Rehabilitation
USAID       G-391-11-006-P     8/29/11
                                           Infrastructure Support Program

                                           Pakistan Assistance: Relatively Little of the $3 Billion in
                                           Requested Assistance Is Subject to State’s Certification of
GAO         GAO-11-786R        7/19/11
                                           Pakistan’s Progress on Nonproliferation and
                                           Counterterrorism Issues

                                           Quality Control Review of the Audit Report and Audit
                                           Documentation for the Financial Audit Conducted by A.F.
                                           Ferguson, of the Forman Christian College, USAID/Pakistan
USAID       G-391-11-003-Q     6/23/11
                                           Grant Agreement No. 391-G-00-04-01036-00, Managed by
                                           Forman Christian College, for the Period July 1, 2009 to
                                           March 31, 2010

                                           Closeout Financial Audit of the Forman Christian College for
                                           the Development of a 4-Year Bachelor Degree Program and
USAID       G-391-11-004-R     6/23/11
                                           Strengthening Programs in Basic Science and Information
                                           Technology, for the Period July 1, 2009, to March 31, 2010



                                                                                                          74
 Agency   Report Number    Report Date                           Report Title

                                         Audit of USAID/Pakistan’s Road Rehabilitation and
USAID     G-391-11-005-P     6/20/11     Reconstruction Activities Under the Quick Impact Projects in
                                         South Waziristan

                                         Financial Audit of USAID/Pakistan’s Rupee Trust Fund for the
USAID     G-391-11-001-N     5/26/11
                                         Period October 1 2006, to September 30, 2009

                                         Quality Control Review of the Audit Report and Audit
                                         Documentation for the Financial Audit Conducted by Nasir
                                         Javaid Maqsood Imran of the Pakistan Competitiveness
USAID     G-391-11-002-Q     5/10/11
                                         Support Fund, USAID/Pakistan Grant Agreement No. 391-G-
                                         00-06-10730, Managed by the Competitiveness Support Fund,
                                         for the Period July 1, 2009, to June 30, 2010

                                         Financial Audit of the Pakistan Competitiveness Support Fund,
                                         USAID/Pakistan Grant Agreement No. 391-G-00-06-01073-
USAID     G-391-11-003-R     5/10/11
                                         00, Managed by Competitiveness Support Fund for the Period
                                         July 1, 2009, to June 30, 2010

                                         Audit of USAID/Pakistan’s Management of Preaward
USAID     G-391-11-004-P      5/6/11
                                         Assessments

                                         Quality Control Review of the Audit Report and Audit
                                         Documentation for Financial Audits Conducted by Khalid
                                         Majid Rahman Sarfraz Rahim Iqbal Rafiq of the Interactive
USAID     G-391-11-001-Q      4/8/11     Teaching and Learning Project Managed by Children’s Global
                                         Network Pakistan Limited Under USAID/Pakistan
                                         Cooperative Agreement No. 391-A-00-06-01075-00, for the
                                         Period July 1, 2008, to February 26, 2010

                                         Closeout Financial Audit of the Interactive Teaching and
                                         Learning Project, and Financial Audit of the Links to Learning
USAID     G-391-11-002-R      4/8/11     Education Support to Pakistan Program Subaward Managed by
                                         Children’s Global Network Pakistan Limited, for the Period
                                         July 1, 2008, to February 26, 2010

                                         Department of State’s Report to Congress and U.S. Oversight
GAO       GAO-11-310R        2/17/11
                                         of Civilian Assistance to Pakistan Can Be Further Enhanced

                                         Accountability for U.S. Equipment Provided to Pakistan
GAO       GAO-11-156R        2/15/11     Security Forces in the Western Frontier Needs to Be
                                         Improved

                                         Audit of USAID/Pakistan’s Flood Relief Efforts as
USAID     G-391-11-003-P     1/24/11
                                         Administered by Local Nongovernmental Organizations

                                         The Bureau of Population, Refugees and Migration’s Internally
DOS       MERO-I-11-01        1/11
                                         Displaced Persons Program in Pakistan




                                                                                                   75
 Agency     Report Number    Report Date                           Report Title

                                           Financial Audit of Khushhali Bank Limited Under the
                                           Developing Non-Bankable Territories for Financial Services
USAID       G-391-11-001-R     12/30/10
                                           Program (Closeout Audit), for the Period January 1, 2009, to
                                           September 30, 2009

                                           Audit of USAID/Pakistan’s Livelihood Development Program
USAID       G-391-11-002-P     12/10/10    for the Upper Region of the Federally Administered Tribal
                                           Areas

                                           Audit of USAID/Pakistan’s Livelihood Development Program
USAID       G-391-11-001-P     12/10/10    for the Lower Region of the Federally Administered Tribal
                                           Areas

                                           Financial Audit of the Costs Incurred by Research Triangle
                                           Institute Under the Education Sector Reform Assistance
USAID       G-391-11-001-D     11/8/10
                                           Program’s School Enhancement Program Component, for the
                                           Period December 4, 2002, to September 30, 2007

FY 2010 Reports

                                           Audit of USAID/Pakistan’s Family Advancement for Life and
USAID       5-391-10-012-P     8/31/10
                                           Health Program

                                           Financial Audit of the Pakistan Competitiveness Support Fund,
                                           USAID/Pakistan Grant Agreement No. 391-G-00-06-01073-
USAID       G-391-10-001-R      8/4/10
                                           00, Managed by the Competitiveness Support Fund, for the
                                           Period February 3, 2006, to June 30, 2009

                                           Audit of USAID/Pakistan’s Primary Healthcare Revitalization,
USAID       5-391-10-010-P     6/28/10     Integration and Decentralization in Earthquake-Affected Areas
                                           Project

                                           Review of USAID’s Internally Displaced Persons Programs in
USAID       5-391-10-001-S     6/28/10
                                           Pakistan

DOS         ISP-I-10-64          6/10      Inspection of Embassy Islamabad, Pakistan

                                           Financial Audit of USAID Funds Managed by Forman Christian
USAID       5-391-10-033-R     5/18/10
                                           College, Lahore, for the Period July 1, 2007, to June 30, 2009

                                           Financial Audit of USAID Funds Managed by Khushhali Bank
USAID       5-391-10-029-R     4/30/10
                                           for the Year Ended December 31, 2008

                                           Combating Terrorism: Planning and Documentation of U.S.
GAO         GAO-10-289         4/15/10     Development Assistance in Pakistan’s Federally Administered
                                           Tribal Areas Need to Be Improved

                                           Closeout Financial Audit of USAID Funds Managed by
USAID       5-391-10-026-R     3/24/10     Greenstar Social Marketing Pakistan (Guarantee) Limited, for
                                           the Period July 1 to December 31, 2007


                                                                                                     76
 Agency   Report Number    Report Date                           Report Title

                                         The Bureau of International Narcotics and Law Enforcement
DOS       MERO-A-10-03         3/10      Affairs Air Wing Program in Afghanistan and Pakistan,
                                         Performance Audit

                                         Closeout Financial Audit of USAID Funds Managed by Aga
USAID     5-391-10-020-R     2/11/10     Khan University—Examination Board, for the Year Ended
                                         December 31, 2007

                                         Audit of USAID/Pakistan’s Capacity Building for the Federally
USAID     5-391-10-005-P     1/28/10
                                         Administered Tribal Areas Development Program

                                         Financial Audit of USAID Funds Managed by Children’s Global
USAID     5-391-10-012-R     12/22/09
                                         Network Pakistan Limited, for the Year Ended June 30, 2008

                                         Status of the Bureau of International Narcotics and Law
DOS       MERO-A-10-02        12/09      Enforcement Affairs Counternarcotics Programs in
                                         Afghanistan, Performance Audit

                                         Effectiveness of Counter Narcotics Programs in Pakistan,
DOS       MERO-A-10-01        11/09
                                         Performance Audit




                                                                                                    77
                                                                                    Appendix



Appendix—–Abbreviations
ATA     Antiterrorism Assistance Program

BISP    Benazir Income Support Program

CDC     Centers for Disease Control and Prevention, U.S. Department of Health and
        Human Services

DOC     Department of Commerce

DOD     Department of Defense

DOS     Department of State

DRL     Bureau of Democracy, Human Rights, and Labor, U.S. Department of State

ECON    Economic Section (U.S. Embassy Islamabad)

ERMA    Emergency Refugee and Migration Assistance

ESF     Economic Support Fund

EXBS    Export Control and Related Border Security Assistance Program

FATA    Federally Administered Tribal Areas

FFP     Food for Peace

FY      fiscal year

GAO     Government Accountability Office

GHCS    Global Health and Child Survival

IDP     internally displaced person

IED     improvised explosive device

INCLE   International Narcotics and Law Enforcement

IOM     International Organization for Migration


                                                                                         78
                                                                                      Appendix


IT       information technology

KWO      Khushal Welfare Organization

LUMS     Lahore University of Management Sciences

MRA      Migration and Refugee Assistance

MSI      Management Systems International

NADR     Nonproliferation, Anti-terrorism, Demining, and Related Programs

NAS      Narcotics Affairs Section (U.S. Embassy Islamabad)

NATO     North Atlantic Treaty Organization

NGO      nongovernmental organization

NRSP     National Rural Support Programme

OFDA     Office of Foreign Disaster Assistance, U.S. Agency for International Development

OIG      Office of Inspector General

PaRRSA   Provincial Reconstruction, Rehabilitation and Settlement Authority

PAS      Public Affairs Section (U.S. Embassy Islamabad)

POL      Political Section (U.S. Embassy Islamabad)

PRM      Population, Refugee, and Migration Section (U.S. Embassy Islamabad)

RAPID    Responding to Pakistan’s Internally Displaced

RSO      Regional Security Office (U.S. Embassy Islamabad)

RSPN     Rural Support Programs Network

U.N.     United Nations

UNHCR    United Nations High Commissioner for Refugees

UNICEF   United Nations Children’s Fund


                                                                                            79
                                                    Appendix


USAID   U.S. Agency for International Development

USDA    U.S. Department of Agriculture

USIP    U.S. Institute of Peace

USTDA   U.S. Trade and Development Agency

WAPDA   Water and Power Development Authority

WFP     World Food Programme

WHO     World Health Organization




                                                         80
